<html>
<title> - [H.A.S.C. No. 113-51] ACQUISITION AND DEVELOPMENT CHALLENGES ASSOCIATED WITH THE LITTORAL COMBAT SHIP</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                         [H.A.S.C. No. 113-51] 

                      ACQUISITION AND DEVELOPMENT 
                        CHALLENGES ASSOCIATED WITH 
                          THE LITTORAL COMBAT SHIP 
                               __________

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON SEAPOWER AND 
                               PROJECTION FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                             JULY 25, 2013

                                     
                  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     
                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

86-466 PDF                       WASHINGTON : 2013 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
    Office, http://bookstore.gpo.gov. For more information, contact the 
      GPO Customer Contact Center, U.S. Government Printing Office. 
               Phone: 202-512-1800, or 866-512-1800 (toll free). 
                             E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d1b6a1be91b2a4a2a5b9b4bda1ffb2bebc">[email&#160;protected]</a>



             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                  J. RANDY FORBES, Virginia, Chairman

K. MICHAEL CONAWAY, Texas            MIKE McINTYRE, North Carolina
DUNCAN HUNTER, California            JOE COURTNEY, Connecticut
E. SCOTT RIGELL, Virginia            JAMES R. LANGEVIN, Rhode Island
STEVEN M. PALAZZO, Mississippi       RICK LARSEN, Washington
ROBERT J. WITTMAN, Virginia          HENRY C. ``HANK'' JOHNSON, Jr., 
MIKE COFFMAN, Colorado                   Georgia
JON RUNYAN, New Jersey               COLLEEN W. HANABUSA, Hawaii
KRISTI L. NOEM, South Dakota         DEREK KILMER, Washington
PAUL COOK, California                SCOTT H. PETERS, California
               David Sienicki, Professional Staff Member
               Vickie Plunkett, Professional Staff Member
                         Nicholas Rodman, Clerk



                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2013

                                                                   Page

Hearing:

Thursday, July 25, 2013, Acquisition and Development Challenges 
  Associated with the Littoral Combat Ship.......................     1

Appendix:

Thursday, July 25, 2013..........................................    41
                              ----------                              

                        THURSDAY, JULY 25, 2013
  ACQUISITION AND DEVELOPMENT CHALLENGES ASSOCIATED WITH THE LITTORAL 
                              COMBAT SHIP
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Courtney, Hon. Joe, a Representative from Connecticut, 
  Subcommittee on Seapower and Projection Forces.................     3
Forbes, Hon. J. Randy, a Representative from Virginia, Chairman, 
  Subcommittee on Seapower and Projection Forces.................     1

                               WITNESSES

Francis, Paul L., Managing Director, Acquisition and Sourcing 
  Management, U.S. Government Accountability Office..............     9
Hunt, VADM Richard W., USN, Director, Navy Staff, Department of 
  Defense........................................................     4
Stackley, Hon. Sean J., Assistant Secretary of the Navy 
  (Research, Development and Acquisition), Department of Defense.     6

                                APPENDIX

Prepared Statements:

    Forbes, Hon. J. Randy........................................    45
    Francis, Paul L..............................................    62
    Stackley, Hon. Sean J., joint with VADM Richard W. Hunt......    47

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Forbes...................................................    77

Questions Submitted by Members Post Hearing:

    Mr. Forbes...................................................    81
    Mr. Langevin.................................................    83
    Mr. McKeon...................................................    81
    Ms. Speier...................................................    89
    Mr. Wittman..................................................    84
  ACQUISITION AND DEVELOPMENT CHALLENGES ASSOCIATED WITH THE LITTORAL 
                              COMBAT SHIP

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
            Subcommittee on Seapower and Projection Forces,
                           Washington, DC, Thursday, July 25, 2013.
    The subcommittee met, pursuant to call, at 9:30 a.m., in 
room 2212, Rayburn House Office Building, Hon. J. Randy Forbes 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE 
     FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Forbes. I want to welcome all our Members and our 
distinguished panel of experts to today's hearing that will 
focus on the acquisition and development challenges associated 
with the Littoral Combat Ship [LCS].
    Concurrent with our hearing this morning, the Government 
Accountability Office [GAO] released a report entitled 
``Significant Investments in the Littoral Combat Ship Continue 
Amid Substantial Unknowns about Capabilities, Use and Cost.'' 
In this report GAO expresses concern about the design stability 
of the platform and concern about the program goals of the 
mission modules. Until these issues are clarified, GAO has 
recommended Congress consider restricting future funding to the 
program for the construction of additional seaframes until 
certain conditions are met.
    This is not the first time that we have received reports 
critical of the LCS program. The Perez report was a report 
commissioned by the Vice Chief of Naval Operations to assess 
and review the Navy readiness to receive, employ, and deploy 
the Littoral Combat Ship. This report, conducted in early 2012, 
was also critical of the LCS program both in terms of concepts 
and implementation. Specific concerns included in this report 
include the concept of operations, manning, maintenance, 
modularity, mission package capability, training, and 
commonality were identified.
    The Director, Operational Testing and Evaluation [DOT&E] 
has also expressed concerns about the survivability of the 
Littoral Combat Ship and indicated that LCS 1 is not expected 
to be survivable in combat, and unable to maintain mission 
capability after taking a significant hit in a hostile combat 
environment. The testing program associated with this first 
class is also lagging.
    I would be remiss if I did not mention the engineering 
casualties that LCS 1 is encountering during the deployment to 
Singapore. While expected in the first class, the sheer number 
of casualties associated with LCS 1 is troubling and needs to 
be quickly addressed. At a time of reducing resources, the Navy 
is planning to even more heavily rely on this lower cost 
alternative. I believe it is incumbent on this subcommittee to 
ensure that we have the most capable lower cost alternative 
that is relevant to the combatant commanders in time of 
conflict.
    I also believe that criticism of the LCS program is 
warranted. From this most recent GAO report to the Perez 
report, and even DOT&E assessment, they all provide an 
alternative view as to how to best manage the acquisition and 
development of this effort. But let me emphasize that none of 
these reports disputes the necessity to rapidly field the 
capabilities proposed by the Littoral Combat Ship, and I look 
forward to doing my part to make sure that we methodically and 
expeditiously field the right LCS capability to the fleet in 
the years ahead.
    Today we are honored to have as our witnesses the Assistant 
Secretary of the Navy for Research, Development, and 
Acquisition, the Honorable Sean Stackley--Mr. Stackley, thank 
you for being here and for your dedication to our country; the 
Director of the Navy Staff and Chairman of the Littoral Combat 
Ship Council, Vice Admiral Richard Hunt, and, Admiral Hunt, we 
thank you for your service to this country and for taking time 
to be with us today; and the Managing Director of Acquisition 
and Sourcing Management, Government Accountability Office, Mr. 
Paul Francis. And, Mr. Francis, thank you and your entire team 
for the good work that they do in bringing these issues 
forward.
    And we thank you all for being here. I couldn't think of a 
better panel to assist our subcommittee in reviewing this 
issue, and I hope that at the end of this hearing, that we will 
be best able to provide a firm direction as to the path forward 
with the LCS program.
    And before I recognize Mr. Courtney, I want to just make 
one other comment, and it is this: I hear from time to time 
people saying, well, isn't this really problematic, because we 
have a difference within the Navy even about the LCS; that we 
have people that are raising different issues, and they are not 
on the same sheet of music? And I want to just tell you all I 
take a totally different view of that. I want to applaud you 
all for being able to come to the table, having divergent 
points of view, being willing to really ask the tough questions 
and put them on the table, and I think that is what makes our 
Navy so strong and capable is our ability to do that. So I just 
want to thank you all for your willingness to not come in here 
in an adversarial role where each person has to put forward 
their own side, but that we can really ask these tough 
questions and get answers, because in the end we want the best 
vessels for our Navy and for the American people, and I want to 
applaud you all for trying to do that.
    And after saying that, it is my privilege now to recognize 
the acting ranking member, I guess we would say today, or the 
vice ranking member Mr. Courtney, someone who is very committed 
to the Navy, and for any remarks that he might have. Mr. 
Courtney.
    [The prepared statement of Mr. Forbes can be found in the 
Appendix on page 45.]

     STATEMENT OF HON. JOE COURTNEY, A REPRESENTATIVE FROM 
  CONNECTICUT, SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

    Mr. Courtney. Thank you, Mr. Chairman, and thank you for 
organizing this hearing. And I couldn't agree with you more. We 
have an outstanding panel here today, who have been here in the 
past to talk about this issue over the last number of years, 
and, again, we look forward to an update, particularly in light 
of the GAO report.
    Today the subcommittee meets in open session to hear 
testimony on the acquisition and development challenges 
associated with the Littoral Combat Ship. The LCS is a critical 
element of the Navy's long-term shipbuilding plan and our 
national security strategy. However, 9 years into the program, 
many of us on this subcommittee and many of our colleagues in 
the House have serious questions regarding the LCS concept of 
operations; its manning, maintenance, and sustainment concepts; 
and its survivability in a combat environment. Given how 
critical this platform is to the Navy's ability to meet 
critical-mission areas in the decades ahead, it is important 
that we get this right.
    Based on the Navy's assurances that its revised acquisition 
strategy would provide an affordable transformational ship for 
the future, Congress agreed to funding additional LCS seaframes 
at the same time that the Navy continued its planned period of 
experimentation, testing, and evaluation. Now, however, we find 
a program facing cost growth, schedule delays, and problems 
with delivering intended capabilities, as GAO noted in their 
report released today. These issues and others lead us to 
examine where the program stands now, where it is heading, and 
what steps all of us here today can do to ensure its success.
    The GAO's report that we will discuss today raises several 
important questions that the Navy and this panel will need to 
sort out. For instance, is proceeding with procurement of so 
many seaframes so far ahead of availability of the 
antisubmarine, mine countermeasure, and surface warfare mission 
modules the best and most cost-effective approach?
    Second, with regards to the GAO's recommendation that 
Congress halt progress on future ships pending further study 
and oversight, what impact would such an approach have on 
existing contracts and ongoing efforts to reduce costs?
    Third, is it good fiscal judgment and sea-building practice 
to continue with the planned purchase of seaframes over the 
next 2 to 3 fiscal years when design changes that could result 
from further developmental and operational testing and 
evaluation could drive up costs?
    With regards to recent news from the LCS deployment in 
Singapore, how should Congress respond to the reliability 
issues with the Freedom's variant diesel engines, which have 
experienced multiple instances of loss of power during 
deployments?
    Finally, given the expertise and experience of our 
witnesses today, I hope you can help us put the challenges of 
this LCS in proper historical context relative to those 
experienced in other shipbuilding programs in the earlier 
years. Ultimately this panel will have to make some tough 
choices in the coming years regarding the right balance between 
getting the fleet, the platforms, and capability it so urgently 
needs, while ensuring that we do all we can as good stewards of 
our increasingly limited fiscal resources. I look forward to 
hearing from our witnesses and to a robust discussion of this 
important program.
    Thank you, Mr. Chairman. I yield back.
    Mr. Forbes. Thank you, Mr. Courtney.
    Just a couple of procedural matters. I ask unanimous 
consent that nonsubcommittee members, if any, be allowed to 
participate in today's hearing after all subcommittee members 
have had an opportunity to ask questions. Is there any 
objection?
    Without objection, nonsubcommittee members will be 
recognized at the appropriate time for 5 minutes.
    I also ask unanimous consent that other committee and 
noncommittee members be allowed to participate in today's 
hearing after all subcommittee members have had an opportunity 
to ask questions. Is there any objection to that?
    Without objection, nonsubcommittee members will be 
recognized at the appropriate times for 5 minutes.
    With that, Secretary, we are glad to have you here, and we 
are going to give you the floor.
    Secretary Stackley. Mr. Chairman Forbes, Representative 
Courtney, distinguished members of the subcommittee, thank you 
for the opportunity to appear before you today alongside Vice 
Admiral Hunt to address the Littoral Combat Ship program. With 
the permission of the subcommittee, I propose to provide a 
brief statement and submit a separate formal statement for the 
record.
    Mr. Forbes. And your written statements of all the 
witnesses will be made part of the record.
    Secretary Stackley. Thank you, sir.
    In view of the witnesses today, myself and Vice Admiral 
Hunt, I am going to ask that Vice Admiral Hunt provide his 
statement first to address the need for LCS in terms of 
requirements, and I will follow to talk about where we are 
programmatically and our proposal for the way ahead.
    Mr. Forbes. And we are happy to do that. Admiral, as we 
mentioned at the beginning, we appreciate your service. Thank 
you for being here, and we would like to turn the floor over to 
you then right now.

 STATEMENT OF VADM RICHARD W. HUNT, USN, DIRECTOR, NAVY STAFF, 
                     DEPARTMENT OF DEFENSE

    Admiral Hunt. Thank you, Chairman Forbes.
    Mr. Forbes. Admiral, if you could pull that mike just a 
little bit closer. I know they are kind of tricky sometimes. 
Make sure it is turned on.
    Admiral Hunt. How about this?
    Mr. Forbes. That is great.
    Admiral Hunt. Chairman Forbes, distinguished members of the 
subcommittee and other distinguished Members, first of all, I 
want to thank you for holding this hearing on the Littoral 
Combat Ship, and I appreciate the opening statements. It is 
exactly where we want to go is take this to the next level and 
make sure we have got the right program for the fleet, and I am 
personally confident that we do.
    In my years in the Navy, I have had the honor of serving as 
a numbered fleet commander. I was the 3rd Fleet commander that 
took delivery of USS Freedom several years ago. I have been the 
Surface Force Type commander, which is responsible for man 
training and equipment of all of our surface Navy ships. I have 
had command of a frigate; I have had command of a cruiser; a 
strike group command. But perhaps most insightful for the 
hearing that we are having today is I was a precommissioning 
engineer on USS Underwood, FFG-36, and lived the life of 
introducing a new ship class to the fleet with the challenges 
that that brings.
    I think really the grouping of those past experiences give 
me a kind of a unique perspective to address the topic that we 
are looking at today.
    The Littoral Combat Ship provides our Navy with vitally 
important capabilities and is key to the future of all naval 
operations. LCS, with its speed, shallow draft, and 
persistence, coupled with the modular architecture, offers the 
ability to operate in the inshore environment and the near-land 
battlespace. It will take us to improve our Navy's global reach 
further than we have today. Its affordable and its 
reconfigurable mission--focused-mission warship design is core 
to handling the swarming surface threat, the countermine 
challenges that we have, and submarines in the contested 
littorals. LCS meets that threat today and has the flexibility 
to continue to improve and face upcoming threats in the future.
    We certainly intend to take LCS into harm's way. LCS is a 
warship that has credible combat systems. If damaged in combat, 
she is built to survive and then withdraw. In terms of aviation 
and unmanned system, this ship has more aviation and off-board 
vehicle capability than any surface combatant of comparable 
size in the world.
    I want to be clear on this fact: LCS will deploy with 
effective mission modules. Each of LCS's three mission 
modules--the antisurface warfare, the mine countermeasures, and 
antisubmarine warfare--offers credible combat power greater 
than what we have today.
    With that in mind, I would like to give just a quick 
thumbnail sketch of these capabilities. I would offer I have 
had the opportunity to talk to all of our forward fleet 
commanders, the 7th Fleet commander in the western Pacific, the 
5th Fleet commander in the Gulf, and the 6th Fleet commander in 
the Mediterranean, and what I am about to say they all agree 
with and recognize the importance.
    For the antisurface warfare capability, we provide an armed 
SH-60 Romeo helicopter. We will eventually provide Fire Scout 
VTUAV [Vertical Take-Off and Landing Tactical Unmanned Aerial 
Vehicle]. It comes with two highly effective 30-millimeter 
cannons, and that supplements the core 57-millimeter main gun. 
This gives LCS a capability that is equal to or exceeds any of 
our small combatants that we have today.
    The package additionally includes two 11-meter RHIBs, which 
are rigid hull inflatable boats, and comes with a dedicated 
boarding team when configured in this manner. The 11-meter 
RHIBs are a great enhancement over the 7-meter RHIBs that we 
have predominantly in the fleet and allow us to conduct 
maritime interdiction operations in antipiracy actions, a point 
made very specifically to me the other day by our 5th Fleet 
commander.
    For mine countermeasures [MCM], the initial increment will 
be about twice as effective as what we have on our MCM-1 class 
Avenger mine sweeps, and it comes with more precise sonar 
capability for rapid hunting and, therefore, avoiding of mines, 
which is clearly where we are going in the 5th Fleet AOR [area 
of responsibility]. As we go through the enhancements, the 
capability will expand to about three times the capability of 
what we currently have in inventory, and we do that without 
putting the ship and, therefore, our sailors into the 
minefield, enhancing their safety.
    And finally, our antisubmarine warfare capabilities are 
equally impressive. It comes both with passive and active towed 
arrays and variable-depth sonars to provide a tremendous 
capability not only where we could escort our battle groups at 
sea, but specifically designed to be effective in the littoral.
    So we have really developed and produced a terrific 
capability. It is the right thing to do, and I stand forward 
looking forward to your questions here as we go throughout the 
hearing.
    Thank you.
    [The joint prepared statement of Admiral Hunt and Secretary 
Stackley can be found in the Appendix on page 47.]
    Mr. Forbes. Admiral, thank you. I am sure the Members are 
going to look forward to asking you a number of questions in 
just a few moments.
    And, Mr. Secretary, tell us the status of the program now. 
We know the admiral has told us why we need it, and let us hear 
where we are going.

STATEMENT OF HON. SEAN J. STACKLEY, ASSISTANT SECRETARY OF THE 
  NAVY (RESEARCH, DEVELOPMENT AND ACQUISITION), DEPARTMENT OF 
                            DEFENSE

    Secretary Stackley. Yes, sir. Yes, sir, thank you.
    And I am going to start by putting this in the context of 
the overall shipbuilding requirements. So I will start with the 
fact that today's Navy is a battle force of 286 ships, about 
half of which are underway on any given day, providing maritime 
security, missile defense, intelligence, surveillance, 
reconnaissance as needed, where needed. They are conducting 
antipiracy patrols, global partnership stations, humanitarian 
assistance, and all the while they are training and repairing 
for the next deployment, the next operation.
    And whether measured by the breadth and pace of today's 
operations or by the defense strategy's call for increased 
naval presence from the Middle East to the Pacific, the broad 
range of missions your Navy is called upon to perform relies 
upon a fleet that--as outlined by the CNO [Chief of Naval 
Operations] in his report to Congress earlier this year--a 
fleet that is globally present, operating forward, a fleet made 
of a balanced mix of ships, a fleet that is 306 ships in 
number.
    The Navy's objective to reach the 300-ship level by the end 
of this decade is more an imperative than a goal if your fleet 
is to meet the missions called for by the Nation, while 
sustaining the operational tempo that we have all grown to 
expect of our ships and sailors. This requires that we build 
that balanced mix of ships per the CNO's requirements at a rate 
of about 10 ships per year, and that we not merely control 
costs, but that we drive down costs in each of our new 
construction programs.
    The Littoral Combat Ship, or LCS, is central to this 
strategy. The LCS's high speed and low draft design make the 
ship uniquely qualified for operations ranging from open ocean 
to coastal or littoral waters. The investment in automated 
systems and low-maintenance design make the ship capable of 
operations at manning levels of less than half that of the 
ships she will replace. The seaframe designed to naval vessel 
rules with an installed combat system capable of meeting the 
ship's self-defense requirements provides a level of 
survivability matched to the threat in which she will operate. 
And, most importantly, the modular mission package design, call 
it flexibility, call it agility, the LCS's ability to put to 
sea with a warfare system and crew tailored to meet its 
assigned mission is a classic force multiplier.
    Today three distinct mission packages are in development 
and testing: surface warfare mission package designed to meet 
the emerging threat proposed by fast inshore attack craft; mine 
countermeasures mission package designed to close a critical, 
absolutely critical, warfighting gap in mine warfare; and an 
antisubmarine warfare mission package designed to provide 
greater capacity to combat the growing threat posed by the 
proliferation of increasingly quiet attack submarines.
    Each of these mission packages has made significant strides 
this past year towards respective operational test milestones. 
In fact, today the USS Freedom, LCS 1, deployed to the western 
Pacific with the first increment of the surface warfare mission 
package on board, is meeting the combatant commander's demands 
in that theater of operations. Meanwhile, the USS Independence, 
LCS 2, operating in her home port of San Diego, is serving as 
the operational test ship for the first increment of the mine 
countermeasures mission package and soon will be joined by the 
USS Fort Worth, LCS 3, operating with the developmental model 
of the next increment of the surface warfare mission package.
    The Navy's strategy for delivering of these mission modules 
is a textbook case of best practices. First, the mission 
modules are designed with an open architecture, which provides 
the ability to upgrade rapidly as new technologies emerge, and 
which provides the ability to compete future upgrades 
throughout the ship's life.
    Second, mission modules are integrated into the ship via 
standard interfaces, which means that upgrades to the mission 
modules are accomplished without impacting the ship. This 
breakthrough design approach provides the LCS with the unique 
ability to upgrade its mission systems without lengthy, costly, 
disruptive depot modernization periods required by other ship 
classes.
    Third, mission modules can be rapidly swapped out if called 
for by a change to the ship's anticipated mission.
    And fourth, employing these design characteristics, the 
Navy is able to field mission packages utilizing an incremental 
fielding plan that manages risks, while providing urgently 
needed capability and capacity.
    Specifically, by leveraging mature technologies and off-
the-shelf systems, the first increments of LCS mission packages 
provide much-needed capacity, exceeding that available in the 
fleet today. Meanwhile we continue to develop new technologies 
and systems needed to fill gaps in today's warfighting 
capabilities for incorporation in later increments.
    Today the mission packages are on track to deliver the 
capability needed by the Navy, and they are doing so within the 
cost targets established for the program. In fact, the greatest 
risk to our mission package program is not technical. Today the 
greatest risk is that posed by the disruption and delay caused 
by stop and start, and slowdown caused by continuing 
resolutions, sequestration, and other budget reductions.
    With specific regard to LCS ship or seaframe production, 
lessons learned from the lead ships have been thoroughly 
incorporated into the production plan. Lead ship design 
deficiencies have been corrected, and the design is very 
stable, very stable, with design changes reduced by 80 to 90 
percent in follow ships.
    The significant facility improvements and investment in 
workforce training made by each shipyard has resulted in 
greatly improved efficiency in each ship's construction. The 
vendor base is leveraging the stability provided by the long-
term LCS contract to drive down costs. By every measure quality 
is high, meeting and exceeding standards set by the Naval Sea 
Systems Command and the Navy's Board of Inspection and Survey, 
and overall the dual-block buy, contracts for 10 ships over 5 
years at each of the shipbuilders, is delivering on the $2.9 
billion savings announced at award.
    In summary, LCS provides the capacity the Navy needs today 
to fill critical gaps in our warfighting ability, and as we 
continue to field future increments of LCS mission packages, we 
will be able to provide much-needed capabilities that do not 
exist in the fleet today.
    The LCS program was initiated with critical flaws, we are 
all aware of that; however, current execution of the LCS 
program is following best practices in acquisition. Holding 
requirements stable, holding the design stable, leveraging 
competition to the fullest, our costs are under control and 
greatly improved, and contained within fixed-price contracts. 
Risk is well managed by leveraging mature technologies and 
employing an incremental approach to upgrading the program's 
modular mission systems. Now is not the time to slow the 
program and add costs.
    We have decisions to make before we proceed in fiscal year 
2016 beyond the current block buy. We will take a fully 
informed business and warfighting-based approach to these 
decisions, and we are committed to working with Congress to 
provide transparency as we formulate these decisions.
    This is our most affordable warship program. It is on a 
critical path to meeting the Navy's force structure 
requirements as outlined by the Chief of Naval Operations. 
There are challenges yet ahead, and there is need for further 
improvement, as there is in each of our shipbuilding and 
aviation programs, but we believe we have properly assessed 
these challenges, and we are going about the business of 
meeting these challenges with a degree of rigor and discipline 
and, too, urgency matched to the critical need for these ships 
in the fleet.
    We thank you for your past support, we urge your continued 
support, we welcome your oversight, and we look forward to 
answering your questions.
    Mr. Forbes. Thank you, Mr. Secretary.
    [The joint prepared statement of Secretary Stackley and 
Admiral Hunt can be found in the Appendix on page 47.]
    Mr. Forbes. Mr. Francis.

 STATEMENT OF PAUL L. FRANCIS, MANAGING DIRECTOR, ACQUISITION 
 AND SOURCING MANAGEMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Francis. Thank you, Mr. Chairman.
    Mr. Chairman, Mr. Courtney, members of the subcommittee and 
other Members, good morning. And I am happy to be here to 
participate in the discussion of the Littoral Combat Ship. I 
think we are all well aware of the unique capabilities and 
features that the ship offers, and I think we would all like to 
see the ship reach its full potential. I will give you a quick 
snapshot of where we see the program today in terms of 
seaframes, mission modules, and the concept of operations.
    I think of the three, the seaframes are the furthest along, 
and I would agree with what Mr. Stackley said about the 
production of the ships being under control, costs being under 
control; I think design in pretty good shape. There is 
significant testing yet to be done, shock trials and 
survivability trials, and then testing out the combat system, 
and the Navy is looking at some design changes for the future, 
doing some studies on that. So we will need to see the effects 
of those.
    On the mission modules, they have had a much tougher go of 
it. They have not done that well in testing. There is quite a 
bit to go yet on the mission modules, and I wouldn't say that 
the configuration of the modules, particularly regarding the 
mine countermeasures, is stable at this point.
    I think the long pole in the tent right now is the concept 
of operations, which involves the manning, the swapping out of 
the mission modules in theater, and the maintenance support 
concept, which is basically off the ship and on shore. The ship 
itself is not going to have much onboard maintenance 
capability. And while I see the seaframes and the modules as 
giving the ship its technical ability, it is really the CONOPS 
[concept of operations] that give it its capability. So those 
abilities won't be able to be brought to bear unless the 
support of the ship works. So at this point I think one can be 
hopeful, but not yet confident that the ship is going to 
deliver on its full capability.
    Let me switch now briefly to oversight. In my view, the 
primary oversight mechanisms that we applied to major weapons 
systems have not been applied on the LCS program, and let me 
give you some examples. When a program starts, you would do 
typically an analysis of alternatives and then pick the best 
alternative. In the case of LCS, the ship was picked first, and 
then the analysis of alternatives done afterwards.
    In shipbuilding you have a sequence where you do design, 
and then you do construction. When we started LCS, we did 
design and construction concurrently.
    In shipbuilding you have a Milestone B decision that 
authorizes the detailed design and construction of the lead 
ship. When we had Milestone B on the LCS, we had already 24 
ships under contract. On the mission modules, those are weapons 
systems, Milestone B on a weapons system authorizes the 
beginning of engineering development. Now, we haven't had a 
Milestone B on mission modules yet, but two of them are already 
in production.
    And then finally, law and policy says before you go into 
full-rate production, a program has to go through operational 
testing. I would say that the LCS today is in full-rate 
production. We authorized four ships a year in 2012, which is 
the full rate anticipated, yet operational testing is not going 
to occur until 2019.
    So, in my view, the strategy up to this point on LCS has 
been buy before fly, and at this point we are producing at full 
rate, yet we are still experimenting with the ship. I think the 
Department of Defense has instituted a number of mechanisms to 
try to do reviews, cost studies, Defense Acquisition Board 
reviews every year, but I believe, in my view, that these are 
workarounds for the oversight mechanisms that were not used.
    So what do we do now? I think we have to look at the 
program the way it is. It is a ship in full-rate production, 
but its operational effectiveness will not be demonstrated for 
years to come. That is where we are. We have to look at the 
ship today as being substantially bought already, so you are 
going to have to provide the support it requires, whether it is 
crew changes, whether it is mission module updates, whether it 
is additional spares. We already know we need additional 
manning on shore to do the offshore maintenance. So you will 
have to provide that for the ships already done.
    In my mind, the report we have issued today makes rather 
modest recommendations on the program. We say, put strings on 
the fiscal year 2014 money, and have the Navy come back and 
tell you what design changes are we anticipating on the ship. 
We also ask the Navy to come back and say--to tell you what are 
the relative advantages and disadvantages of each ship as they 
perform each mission. Now, the Navy is already doing studies on 
these. It should be pretty easy to do, and you ought to know 
it, so I don't see that as halting the program. These are 
things I think the Navy could do as a condition for getting the 
money.
    We have also made other recommendations that would be 
relevant to the 2016 block buy. This is the next block of 
ships. It is a very big decision coming up. What we have 
recommended is keep the production of the ships to a minimum 
rate during that block buy at least until we get through 
operational testing, and in line with that, we say, hey, keep 
the mission modules' production rate minimum so--just enough to 
support testing.
    Now, the Department does not agree with us on that and 
says, hey, we are in full rate, we are making four a year, we 
have great prices. If we slow it down, prices are going to go 
up, and we have to produce the mission modules to keep pace 
with the ships. I would just ask you to be wary of that dynamic 
because it creates, in my mind, irreversible momentum to go 
forward and can tie your hands. So just be wary of that.
    So what can you do? I think about you having a very good 
window for oversight over the next 2 years. In spring of 2015, 
you will have to consider the Navy's proposal for the 2016 
block buy, so your dates actually come a little bit faster than 
you might otherwise think. At that point I think you can employ 
some of the mechanisms that we have recommended on the 2014 and 
2015 buy to get the Navy to provide you information that you 
need to make the decisions on those two ships, and I would pay 
particular attention to what the Navy proposes for the block 
2016 buy. For example, if that proposal came in for a large 
number of ships or a number of ships that, say, went beyond 
operational testing, then I think your hands really could be 
tied in oversight because we will have locked in the bulk of 
the program.
    So in closing I would say you have some leverage between 
now and the spring of 2015. Use it. And I wouldn't be too 
overcome by concerns that this is going to be devastating to 
the program. I don't think it is.
    So, Mr. Chairman, Mr. Courtney, that concludes my remarks.
    Mr. Forbes. Mr. Francis, thank you.
    [The prepared statement of Mr. Francis can be found in the 
Appendix on page 62.]
    Mr. Forbes. And to all of our panelists, we want to just 
tell you how much again we appreciate you being here. We also 
understand you represent large teams behind you. As we thank 
you, we are also thanking the professionalism that they bring 
today.
    I want to just tell you, today is not a deposition, so we 
don't want to have a situation we are asking questions, and you 
feel like you have to get out without answering anything in a 
short period of time. We want you to have that discussion.
    I am going to defer all of my questions because this is one 
of the most bipartisan subcommittees probably we have in 
Congress. We have enormous respect for each other. A lot of 
expertise represented in this room today. I want to make sure 
all of our Members can ask their questions.
    With that, I would like to ask unanimous consent that we 
can reduce our time from 5 minutes to 4 minutes, because I 
think we have votes sit at 11 o'clock coming up, and I want to 
make sure we can get as many Members in as possible. I think 
Mr. Courtney has agreed to that. Is there any objection to 
that? If not, we will reduce our time to 4 minutes.
    I will ask maybe some questions in between just to link up 
with the previous questions. If any of you want to comment, 
just let me know, give me a signal. We want to make sure you 
get whatever you need on the record.
    With that, I would like to go first to my good friend Mr. 
Courtney for his questions.
    Mr. Courtney. Thank you, Mr. Chairman, and, again, I know 
we have a lot of attendance here today, so I am going to try to 
keep my questions very brief and succinct.
    Again just, Mr. Stackley, I was wondering if you could just 
kind of help us sort of understand the study suggestion that 
came out of GAO where they, again, suggested to Congress that 
we restrict funding until studies have been complete. Are these 
studies actually under way? Are they close to being finished, I 
mean? And what do you see as the impact; is it neutral or is it 
significant if such a restriction was put into place, again 
just on the studies?
    Secretary Stackley. Yes, sir. So first on the studies. 
Every shipbuilding program that we have got we have got ongoing 
studies in terms of looking at what further capabilities do we 
need to bring to the ship, what is the cost associated with 
bringing that capability, what is the impact to the program, 
and then what is the best way for incorporating those upgrades 
if it is determined that the cost is well worth the added 
capability?
    So specifically for the LCS program, I would characterize 
we have three not so much studies, but we are doing three looks 
at the program. First is the continuation of correction of 
deficiencies. You know, we have the first ship out on 
deployment, and one of the things that we are gaining from that 
deployment is lessons learned in terms of extended persistent 
operations in theater, what do we need to do different going 
forward to improve its performance.
    Chairman Forbes, in your statement you made reference to 
the SSDGs [ship service diesel generators]. That is probably 
the most significant design deficiency that we are dealing with 
today. We do have reliability issues that we have identified, 
we have fixes in place on the follow ships, and as LCS 1 
continues its deployment, we will be incorporating those fixes 
on LCS 1 to address that issue. So there are correction of 
deficiencies that are ongoing.
    The second is I will call it commonality. We want to 
achieve greater commonality with fleet standard systems and 
across the class, so we are looking at two areas in which 
commonality have big bang for the buck. One is what we call 
C4I, or our command, control, communications information 
systems; and the second is in the combat system itself.
    So we have done studies in terms of what alternatives we 
would look at. The open architecture design of the LCS gives us 
great ability to bring forward those type of upgrades without 
significant disruption to the platform, and now we are going at 
looking at the specific details in terms of what changes would 
be required to the platform, what timeframe makes sense to do 
that, and what is the associated cost.
    So, for example, we look at the fiscal year 2016 
procurement as that would be a likely time to incorporate 
upgrades in that regard. We do this very thoughtfully, we do it 
through a configuration steering board, we go through the rigor 
of the design and the cost estimating, and we work with the 
shipbuilders to ensure it does not set us backwards.
    The third area would be in the mission modules themselves. 
As I described in my opening statement, what we are doing today 
is we are leveraging off-the-shelf technologies for the early 
increments, and we are also continuing with development of new 
technologies. In that development of new technologies arena, we 
have had a couple of setbacks. We have relied on systems that 
were either being procured by one of the other services that we 
were going to leverage, specifically the non-line-of-sight 
missile that the Army was producing or developing to produce. 
They have cancelled that program, so we are moving on with the 
development of an alternative surface-to-surface mission module 
capability for a future LCS increment.
    So those are the three types of studies that are ongoing, 
and we are doing this in broad daylight. We are not doing this 
behind closed doors. We are doing it in broad daylight. We 
welcome the oversight, we welcome the insight that we can 
provide to you all, because we are going to be coming back to 
you at least annually with a budget to discuss and propose 
future investments in those regards.
    Mr. Courtney. Thank you.
    And just one other sort of housekeeping question. Again, 
the GAO recommendation was to buy sort of a minimum quantity of 
ships to preserve the industrial base until full production--
full-rate production design decision is made. In the Navy's 
response you state that the Navy plans to buy LCS seaframes in 
accordance with the most recent long-range shipbuilding plan.
    So I guess the question is, again, in your testimony you 
said we are building four a year right now, but the 
shipbuilding plan, when we checked that, it was two a year for 
2016 and 2018. Again, is that the number for those years, two?
    Secretary Stackley. Yes, sir. Yes, sir. So both the 
shipbuilding plan and the President's budget that was submitted 
for 2014 FYDP [Future Years Defense Program], we continue with 
the block buy through 2015, which is four per year, and the 
budget and the long-range plan lays up a reduction to two per 
year.
    So let me go to the specific, the second half of your 
question, which is, well, what would the impact be of slowing 
down the program, taking a pause, or delaying in 2014 while we 
continue to do further studies? Well, the impact would be many-
fold. First, there is going to be an impact to the fleet 
because the fleet needs the capability, and this is delaying 
getting the capability out there.
    Second, there is an impact associated with the cost to the 
program. Any delay in any shipbuilding program is going to have 
a cost impact, and so we have to decide, is it worth that 
impact. As I described, we believe that the seaframe production 
is very stable. We are going forward with off-the-shelf 
technologies on the mission packages, which we are developing. 
So to delay the fiscal year 2014 ships, which would be 
delivering in the 2017, 2018 timeframe, to await completion of 
later increments developmental testing, I think that is going 
in the absolute wrong direction. We will be incurring 
unnecessary added cost on the program associated with that 
disruption. What we would rather be doing is sitting down with 
Congress as we submit future budgets and walking through in 
great detail exactly where we are, why we believe this is the 
exact right thing to do for the Navy and the Nation, and look 
for your support in that regard.
    Third impact beyond just the loss of the capability and the 
added cost is the industrial base. Both of these shipbuilders 
have done an outstanding job of responding to the issues and 
the failures on the lead ship to train up a skilled crew, to 
make investments in their facilities, to hit the targets that 
we set with the block buy, and right now they are getting up on 
the governor for steady-state production. Again, to insert a 
pause, a break in that production in the shipbuilding program 
is going to have impact not just to the cost, but to that 
workforce, that skilled workforce, that we have got in place. I 
do not recommend that.
    Mr. Courtney. Thank you.
    Mr. Forbes. Mr. Francis, you wanted to respond to that?
    Mr. Francis. Yes, sir. Thank you.
    I think the things Mr. Stackley just talked about, the 
studies they are doing, I think that is basically the essence 
of our recommendation, to come back and tell you what they have 
in mind and when, and recall that the seaframe is doing well 
now because it is coming down its learning curve. So of real 
importance would be are we considering any design changes for 
the 2016 block that could interrupt that learning curve and 
maybe change prices?
    So that is the essence of our recommendation. The Navy has 
until March before it actually gets that next block under way. 
I think there is plenty of time. So I don't envision a scenario 
where the 2014 buy actually gets held up pending these studies. 
I think the Navy could in pretty good time give you the 
information you need.
    And then on the shipbuilding plan, the numbers are going 
on, as Mr. Stackley said, from 2016 on, are less than four 
ships a year, so I don't know if there is a down select 
envisioned out there. If there isn't, then that rate would 
comport with our other recommendations, which is keep the rate 
at--the minimum sustained rate would be between two and three 
ships a year until operational testing. So we might be in 
violent agreement.
    Mr. Forbes. Okay, thank you.
    Gentlemen----
    Secretary Stackley. I would like to have that----
    Mr. Forbes. Oh, sure, yeah.
    Secretary Stackley. I would like to have that on the 
record: GAO said they are in agreement with the Navy.
    Mr. Forbes. Notice he said ``violent agreement.''
    Mr. Runyan is recognized for 4 minutes.
    Mr. Runyan. Thank you, Chairman.
    Mr. Stackley kind of answered my first question about 
increased costs, but the next one kind of deals with it also, 
too. Admiral Hunt, talking about the Freedom getting back 
underway less than a day after a generator issue, is that 
problem more systemic, and does it increase the costs of future 
ships to fix it?
    Admiral Hunt. I think the most recent casualties that we 
have had to Freedom are things that you get in normal 
operations, quite frankly. So we have a first of, you know, 
ship out there going through the paces. It is one of the 
reasons why we wanted to get Freedom on deployment out there in 
a real-world operating situation as quickly as we did.
    I am very encouraged in the fact that the maintenance team 
in place is able to take these casualties, repair them in 
stride, and get the ship back under way. I would be more 
concerned if we had casualties that we found were surprising 
us, we didn't have the right ILS [integrated logistics 
support], the logistic support, in place, and we had big 
delays. We have not seen that.
    So this is, first of all, I think, expected. You know, one 
of the things that we have asked is we have gone back and, to 
put some historical context in this, taken a look at the FFG-7 
program, the Arleigh Burke program, Ticonderoga. I may have the 
exact timeframe wrong, but Arleigh Burke when she first 
deployed, I think, ended up in a shipyard overseas in the 
Mediterranean for almost 2 months. We are not seeing that kind 
of stuff at all.
    So I think we do have a good program in place, and we are 
adapting. We are learning, and we are putting the things that 
we learn straight into follow-on ships in a very useful way.
    Secretary Stackley. Sir, can I add to that?
    Mr. Runyan. Sure.
    Secretary Stackley. Specifically with regard to the ship 
service diesel generators, first the requirement. Those 
generators are required to perform at 800 hours of operation 
between failures. Today what our experience is is 450 hours 
between failures. So that is the symptom of the problem. We 
have three known issues, one associated with the governor on 
the generator, one associated with the cooler that goes with 
the generator, and one associated with the size of the piping 
that is associated with coolant flow. There are fixes for all 
three. They are not all incorporated in LCS 1 today, but they 
are all being incorporated on the follow ships of that variant. 
So today we are working through these interruptions in terms of 
the ship's operations, if you will, to incorporate these 
failures. We have got to fix that.
    The good news is that the ship is designed with four diesel 
generators. It requires two under operations plus one in stand-
by, so there is redundancy in the system to overcome some of 
the shortfall in the operational availability, and there are 
fixes in place, and those fixes are largely contained to that 
package unit that shows up from the vendor, and they are being 
incorporated by the vendor. So the impact on the ship side will 
be minimized.
    Mr. Runyan. Thank you.
    And I don't know if Mr. Francis can answer this question, 
but I think it is kind of--I won't use the phrase 
``problematic,'' but it is something I think we are walking 
down when you talk about our acquisition process. I think 
another member of the Armed Services Committee, Ms. Duckworth, 
raises a question about concurrency in, you know, development. 
Are we kind of walking down the same path with the LCS as the 
F-35 in that realm and kind of don't know what the future 
holds?
    Mr. Francis. Mr. Runyan, I think there are some 
similarities there. I mean, it has been concurrent. I think 
problems with the generator that we just talked about, I don't 
think you minimize those, but I think these are things that the 
Navy is going to solve, you know. I don't think those are show 
stoppers.
    But I think the discussion we are having today with 24 
ships under contract and a number delivered and under 
construction, I think, sets a little different context. If we 
were talking about what don't we know about the configuration 
of the modules, and what they will be able to do, does the 
operational concept work, are we going to be able to swap the 
mission modules out in theater, if we were having this 
discussion 5 years ago on the first ship, I would say, hey, we 
are learning as we are going, and it is a pretty good strategy. 
At this point we are so far down the pike, we are quite 
concurrent, and as I mentioned in my opening statement, our 
oversight tools are rather limited.
    So this is, I think, emblematic of the acquisition process. 
This is how things go. So there is, I think, bigger things to 
do in the future about the acquisition process, and part of it 
is you have to put money on the table to get a program going, 
and generally money goes on the table about 2 years before the 
program starts. So it goes on the table on the basis of 
promises, promises about we think we are going to be five times 
better than anything we have, and we don't think it is going to 
cost much. As those promises get reduced over time, then we are 
way down the pike, and that is where we are.
    So I think it is systemic. I think we put people in 
difficult positions in the Department because you have to be 
able to justify your program that way, and it is optimism, and 
it gets embedded. So, yes, we are playing out, I think, what is 
typical in the acquisition culture.
    Mr. Forbes. Mr. Francis, the time is up. And let me just 
point out to our Members, we are told our floor votes are going 
to be ratcheted up a little quicker. In consultation with Mr. 
Courtney, we would like to ask unanimous consent we can reduce 
our time to 3 minutes each. I just want to get as many Members 
in as possible. Any objection?
    We will reduce it to 3 minutes. And if you can, try to 
focus on one question. And we don't want to cut you guys off, 
but if you can make your answers as succinct as possible 
because we have a lot of Members that want to get their 
questions in.
    And with that, we recognize Mr. Johnson from Georgia for 3 
minutes. Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    Mr. Stackley, you indicated that design costs are under 
control and--or design and costs are under control, but there 
are some design changes that are being considered.
    And then, Mr. Francis, you indicated that for 2014 fiscal 
year, we should hold the money and ask for any design changes, 
and you also recommended that we keep the block 2016 buy, keep 
it at a minimum amount.
    What I would like to ask Secretary Stackley is can you tell 
us what would be the impact on the Navy in terms of meeting its 
future requirements if this committee were to follow the 
recommendations of Mr. Francis?
    Secretary Stackley. Yes, sir, and we did some clarification 
in terms of his recommendation and my earlier response.
    Mr. Johnson. And then I would like to get Mr. Francis' 
rebuttal, if you will.
    Secretary Stackley. Yes, sir. Our plan to continue with 
procurement of the block buy, which would mean four ships in 
2014 and another four ships in 2015, is central to, one, 
getting the capability that is in the CNO's requirements letter 
to Congress, and is filling a shortfall that we have today in 
terms of overall force structure, getting up to the 300 ships. 
Those four ships in 2014 and four ships in 2015 with the 
capability they bring, we need those for operational 
considerations, and then, as earlier discussed, disrupting that 
flow in the shipyard and the vendor base will drive costs into 
the program, which is exactly what we are trying to avoid. So 
that is a short description of what the impact would be.
    Understanding what Mr. Francis described earlier in terms 
of providing more information, more insight to Congress in 
terms of where the Navy is going before we put those ships 
under award, under contract, we welcome that, and, in fact, we 
have monthly reports to Congress we are providing, we have 
quarterly reports to Congress we are providing, we have annual 
reports to Congress we are providing, we have briefings. We 
will provide you full insight, full daylight in terms of where 
we are going and the considerations that we are considering, 
the issues that are under consideration.
    Mr. Johnson. Thank you.
    Mr. Francis.
    Mr. Francis. Yes, sir. I think we are squared away on what 
our recommendation means. I would be surprised and disappointed 
if it actually did result in holding off the 2014 buy, because 
the studies are in place, and I think the answers could be 
given.
    We pegged that to the 2014 money just as a forcing 
mechanism so that the Navy could come by or come back to you in 
good time. Really, the things that we are talking about will 
affect most directly the 2016 buy, but you should have some 
time to consider that. So I think if the Navy comes forward 
with that information, I don't see why the contract couldn't be 
awarded, and you will have the information.
    Mr. Johnson. Thank you. I yield back.
    Mr. Forbes. Mr. Johnson's questions are excellent 
questions. We may ask you guys to expand a little bit on those 
in written form, if you would, after this hearing.
    [The information referred to can be found in the Appendix 
beginning on page 77.]
    Mr. Forbes. And now we recognize the gentleman from 
Colorado Mr. Coffman for 3 minutes.
    Mr. Coffman. Thank you, Mr. Chairman.
    Admiral Hunt, we have two separate shipbuilders building 
Littoral Combat Ship, and I have read some analysis that this 
is really going to take, require separate crew training. Is 
that criticism valid? I mean, are these ships by these two 
different builders really that different that require separate 
crew training?
    Admiral Hunt. There will clearly be some differences in the 
training, but fundamentally the training that we have 
established and set up in the schoolhouse in San Diego is very 
similar; same instructors walking through folks. The 
differences is primarily going to be operating the consoles 
that they have. That is something that is achievable. It is 
programmed in right now, and I think we will manage that very 
satisfactorily.
    Mr. Coffman. So as we proceed, then, that a sailor on one 
variant of this class of ship, would they be expected, then, to 
proceed with their career in that same variant, or can they 
cross over easily?
    Admiral Hunt. You know, again, it is going to depend on 
exactly what kind of sailor that we are talking about. So 
diesels are different, gas turbines are different. There will 
be a different training in that. But within the Navy we do that 
quite often. When you go between cruisers and destroyers and 
frigates, there are changes. Is that a major impact? I don't 
believe it is. I think it is something that we are going to 
work through. It is clearly within the realm of the training 
system that we have set up right now.
    Mr. Coffman. When you talk about the open architecture of 
the Littoral Combat Ship, I mean, really how significant is 
that in reducing costs in the long run, because we do service 
life extension programs all the time on other ships. Secretary 
Stackley, would you want to----
    Admiral Hunt. If I could, I would love to take that.
    I think that is the essence of the program. I think it is 
vitally important. I have lived my entire Navy career where we 
have made changes, and we routinely do, especially in combat 
systems, to Navy ships, and when we do them on the older legacy 
ships, we rip out everything to bare metal. We pull cables, we 
take it out, we rebuild it. I have seen it, I have lived it as 
the type commander on cruisers. You walk into a space, and it 
is completely bare metal.
    That is a very expensive way to upgrade and is really one 
of the biggest challenges that we have in the Navy in 
modernization. The modularity and open systems architecture 
that this ship provides is the entryway to the way the Navy 
must do ship construction in the future.
    I am very encouraged by what we have got. I think you are 
going to see more and more of this, and it is going to be a 
huge force multiplier not only from the cost perspective--and I 
will yield to Mr. Stackley on that--but equally important from 
a combat systems enhancement, the reliability and safety that 
we get from it.
    Secretary Stackley. I just want to provide a couple 
crystal-clear examples. First the combat system. Now, this is 
the core of the ship's weapon system; two different versions, 
both of them are described as open. One is Lockheed Martin 
variant, and the other variant is a Northrop Grumman variant on 
the LCS 2.
    So what we did to challenge this was we took the LCS 2 
combat system, we dropped the software that came with it, and 
we brought the Navy's Ship Self-Defense System [SSDS] software 
to the system, loaded it up, and demonstrated that we could 
drive that combat system with the Navy's SSDS system, and then 
likewise porting over to the Lockheed Martin version. So now we 
have choices. When you talk about commonality, we have choices 
in terms of loading up the combat system for LCS 1, LCS 2 to 
drive commonality and figure out what gives us best capability 
and cost.
    That is software.
    On the hardware side, describe the non-line-of-sight [NLOS] 
missile cancellation. We were able to quickly move over and 
look at other missile systems to fit the exact same form, fit 
and function that was provided by NLOS, and without disrupting 
the ship, we are developing and testing different missiles to 
go in its place without missing stride in terms of the IOC 
[initial operating capability] date for that capability.
    Mr. Coffman. Thank you, Mr. Chairman.
    Mr. Forbes. The gentleman from Washington, Mr. Larsen, is 
recognized for 3 minutes.
    Mr. Larsen. Thank you, Mr. Chairman.
    I think this subcommittee and the committee as a whole has 
a like/hate relationship. We like it, and we hate hearing about 
it all the time. And I have been here in my 13th year along 
with Mr. Forbes, and it hasn't been that long since I have been 
hearing about it, but it has been about half that time. And it 
is usually never 100 percent positive or 100 percent negative, 
but we just keep hearing about it. And this today is just the 
next chapter in a long book, a book I want to finish, and I 
want you all to finish. I want to stop reading this book.
    But I am concerned that this is turning into a 52-ship Beta 
program. I keep hearing about we are deploying, but we are 
testing while we are deploying, in the hopes and eventuality we 
will have fully operational platforms with the modules in 
place, using them. But we don't have the modules in place, and 
we are still out deploying and testing the platforms we have.
    So the first question I have for Mr. Stackley is--maybe I 
am wrong, and I have been wrong on a lot of things--how similar 
is this deploy and test model to other classes of ships? We do 
it on other platforms or other programs that sometimes works 
and sometimes don't, but we are talking about a multimillion-
dollar platform here, so how similar is this?
    Secretary Stackley. Yes, sir. Let me describe that I have 
been involved with every lead ship since the late 1970s that 
the U.S. Navy has fielded either as a sailor, as a designer, as 
a production manager, as a program manager, as an oversight 
member in the Senate Armed Services Committee and in this job. 
This is the way we bring ships to the fleet. We do not have a 
prototype. We do not have a prototype. LCS 1 is the prototype 
for this class. That is the way ships are built and fielded.
    The development that is going on in parallel with deploying 
the ship--this is for future upgrades and increments that have 
been laid out in the mission modules; not to the ship itself, 
to the mission modules that bring that weapon system 
capability--but if you look at the early increments, those 
capabilities are in the fleet today. It is the 60 helicopter; 
it is the AQS-20 Alpha sensor that protects the mine. Remote 
mine-hunting system, she has demonstrated her ability to hit 
her IOC date.
    You go right on down the list of early capabilities, the 
30-millimeter gun, they are in the fleet today. We are not 
talking about developing concurrent with building; we are 
talking about integrating these capabilities into the mission 
package, completing the test program, and getting it out into 
the fleet. The risk in these early increments is very low, very 
well managed.
    There are some developments for later increments that we 
are breaking new ground, and that is why they are coming in 
later increments, and we are not trying to do ``Big Bang'' 
approach in the early instantiation.
    So this is the way we field ships. We did get out of the 
blocks wrong on this program, absolutely, and that is why you 
are reading that book over and over again, but we have 
corrected those issues. We have to make sure we don't 
backslide, and we, again, welcome your oversight as we continue 
to march down this path.
    Mr. Larsen. Thank you.
    Mr. Forbes. The chairman of the Readiness Subcommittee, Mr. 
Wittman, is recognized for 3 minutes.
    Mr. Wittman. Thank you, Mr. Chairman.
    Gentlemen, thank you so much for joining us today.
    Secretary Stackley, I want to get right to an issue of 
survivability, I want to give you some examples. If you go to 
1987, USS Stark was hit by two Exocet missiles, killing 37 
sailors. The ship didn't sink; made temporary repairs, made its 
way home under its own power. In 1988, USS Samuel B. Roberts 
hit a naval mine in Persian Gulf. The ship didn't sink. It made 
it out of the minefield under its own power. In 2000, we all 
know the story of the USS Cole was attacked by terrorists in 
Aden, Yemen, killing 17 sailors. The ship didn't sink. We all 
know the story of how it was put on a drydock ship, repaired, 
back into service today. In 2006, the INS Hanit, an Israeli 
Navy Sa'ar 5 corvette built in the United States, was hit by a 
Charlie-802 antiship missile killing four sailors. The ship 
didn't sink.
    Let me ask you this: The Navy plans to do survivability 
trials in 2014 and 2015 on LCS. The Navy's Director, though, of 
Operational Tests and Evaluation has reported the LCS is not 
expected to maintain mission capability after taking a 
significant hit in hostile combat environment.
    My question is this: By the time the Navy completes these 
LCS capability and survivability trials, the Navy will have 
either procured or have under contract more than half of the 
ships in this class. The question is this: Will LCS 1 or LCS 2 
survive a hit from an Exocet missile, a mine, a Charlie-802 
antiship missile, or a small boat packed with high-energy 
explosives?
    Secretary Stackley. Yes, sir. Let me first describe that we 
don't wait for the final test to determine how we are faring. 
So every aspect of the design and the testing of each 
component, each element of a ship leads to that final exam 
associated with the total ship's survivability trials and the 
ship shock trial, just as in every other shipbuilding program. 
And every piece of analysis, every aspect of the design data 
says that we are going to meet the survivability requirements 
established for the LCS.
    Now, first, each of the examples that you described, they 
took a hit, and they came home safely. They did not carry on 
their mission. They did not carry on their mission. When we 
talk about the level of survivability for the LCS, it has to be 
able to, one, defend itself. And there is a threshold 
requirement of what it needs to be able to defend itself 
against, whether it is an Exocet, whether it is a fast attack 
craft that is approaching the ship. So it designed to meet that 
threat. Then if it takes a hit, it is designed to survive 
through watertight subdivision design, through advanced 
firefighting systems, to automated systems that respond 
immediately to the impact and contain the impact. It is 
designed to survive that and then be brought home safely.
    Mr. Francis. Mr. Wittman, may I just comment? One of the 
things on the LCS regarding survivability, and you are right, 
the final tests are in 2014 and beyond, but the expectations of 
the ship have been lowered over time. So I think originally 
when chapter 1 of the book, if you will, we are talking about 
the ship being able to go into areas where there was access 
denial and so forth and hostile environment, that has been 
backed off to benign low-threat environment. So that is a hedge 
against survivability. And also I think the thought was it was 
going to be a self-sufficient surface combatant. It wasn't 
necessarily going to need a destroyer or cruiser to help it 
with certain threats. I think we backed off on that as well. It 
will need it.
    So two things are going on. There is the survivability of 
the seaframe itself, and then adjustments to what situations we 
are going to put the seaframe in.
    Mr. Wittman. Very good.
    Thank you, Mr. Chairman. I yield back.
    Mr. Forbes. I thank the gentleman.
    Admiral Hunt. Mr. Chairman, could I comment on that?
    Mr. Forbes. Absolutely.
    Admiral Hunt. The two things for survivability. First of 
all, as naval officers we fight our group. It is not individual 
ships; we put it together. The cruisers protect the aircraft 
carrier; the aircraft themselves protect the larger group. So 
we work in a layered system, if you will.
    It is incumbent upon that leader, whether he is a strike 
group commander or a fleet commander, to make sure that he does 
that in as safe an operational situation that he can make, and 
he will do so.
    This ship is designed exactly to be the right survivability 
in the right operations that we are going to put it in. It 
truly is. It was designed with lower RCS, radar cross-section. 
It has got speed. It can maneuver rapidly. All that contributes 
directly to self-defense from a ship driver perspective. So I 
feel very comfortable with that.
    The kind of missions that we get it if it goes into a 
higher-threat environment, it will come with that protection, 
and that is coalition protection. The course that I am teaching 
right now up in Newport, Rhode Island, at the war college for 
our next-generation fleet commanders, it talks about how we do 
that and how we think about it. So I am comfortable there.
    From the ship perspective itself, when we modified the 
initial design to follow enabled vessel rules, we enhanced and 
increased the survivability of the ship itself. The 
firefighting system is solid. The configuration of the ship, 
the way she is built, is solid. It is good enough to protect 
our sailors and extract yourself from that dangerous situation, 
and that is really it.
    Mr. Forbes. And we need to go to Mr. Hunter from 
California. He is recognized for 3 minutes.
    Mr. Hunter. Thank you, Mr. Chairman.
    First question is concerning the NLOS system that you no 
longer do, and have you heard the Brimstone missile? You all 
just did a test with the Brimstone and hit four small boats, 
swarm in the LCS, and what have you thought about that for a 
replacement.
    Secretary Stackley. Yes, sir, we have taken a good look at 
the Brimstone. It has got some desirable qualities. But I can't 
tell you----
    Mr. Hunter. It is relatively inexpensive.
    Secretary Stackley. It is relatively inexpensive, but I 
cannot tell you that we are running to that missile. We have 
other alternatives that are in the mix, yes, sir.
    Mr. Hunter. Number two, what type of ships would you put in 
if you had to go up against China, if you had to go up against 
a China or a North Korea? Would you use the LCS, or would you 
use more destroyers and subs? What type of ships would you use?
    Admiral Hunt. For part of that operation, I would 
absolutely use LCS. So it is interesting right now, again, we 
are doing a war game that is part of the scenario that we are 
looking at, LCS is part of the mix. You know, for the initial 
phase to be in the theater and sense the environment before 
hostilities may occur, we would use all the assets available.
    So she is a sensor, she has got speed, she can, you know, 
link that information back to the larger group, and she 
provides those unique capabilities in each one of the mission 
modules that the fleet commander would then tailor, depending 
on how the operational concept developed that could be used. So 
from the surface to the ASW to the mine, I would expect all 
those capabilities will be added to the mix.
    Mr. Hunter. If you don't know what the modules do yet 
because they don't exist as modular, for them to be able to be 
plugged in, how do you know what the conduct of operations 
would be if you don't have the module?
    Admiral Hunt. I think we have a good idea what the initial 
increments of those modules will provide. We certainly have the 
surface module right now on Freedom in Singapore.
    Mr. Hunter. But you would have to replace the NLOS on 
surface module, right? So you don't really have it; you kind of 
have it. You don't really have anything. You kind of have----
    Admiral Hunt. That is an additional capability. What she 
provides right now is equal to what you have on an FFG.
    Mr. Hunter. Well, then, why get a new ship if what you have 
is just equal, right?
    Admiral Hunt. Because the FFGs are timing out from a 
costing perspective, modernization, and being able to adapt it.
    Mr. Hunter. My question is, though, if you had to go up 
against a China or a North Korea, the LCS is not the best ship 
for that scenario. It is not the best type of ship. Now, you 
could use anything. You could use a RHIB, you could use an 
unmanned underwater vehicle, you could use a whole lot of 
stuff. But I have talked to a number of admirals and Navy 
experts that say the LCS is not what you want there. It is 
great for the Strait of Hormuz, it is great for other areas, 
but with the Asia pivot it is not what you want. You want more 
cruisers. You want more subs that have survivability against 
the long-range threat that China provides.
    Admiral Hunt. Two things, Congressman. The first is we set 
the stage before the conflict begins. LCS is absolutely key to 
that. And I just had a 2-hour discussion with our 7th Fleet 
commander, who absolutely is ecstatic about what else he has us 
doing in theater right now and the contribution that it 
provides.
    And the second piece is----
    Mr. Hunter. I don't understand, though. What the LCS has 
done in theater so far is dock at a harbor that other ships 
couldn't dock at because it has a very shallow draft, right? So 
it has done that. It has gone to some other docks.
    Admiral Hunt. And she is out operating in the CARAT 
[Cooperation Afloat Readiness and Training] exercises 
throughout the region.
    Mr. Hunter. Doing doughnuts, right? Going really fast in 
circles? That is what the ship driver said a couple days ago, 
right?
    Admiral Hunt. She is out performing the missions as desired 
by our 7th Fleet commander.
    Mr. Hunter. Thank you, Mr. Chairman.
    Mr. Forbes. To the witnesses, I hate to impose on you, but 
we have a vote on the floor that is going to probably run about 
40 minutes. What are your schedules like? Can you take a recess 
and let us come back? I know it is tough on your schedules, but 
we have got a few Members that really would like to ask just a 
couple more questions. How are your schedules?
    Secretary Stackley. Sir, we are at your service.
    Mr. Forbes. We apologize for that. They don't call us and 
ask us if the votes are convenient now. But we will recess 
until the votes are completed, and then we will reconvene for 
whatever questions that remain.
    Thank you.
    [Recess.]
    Mr. Forbes. Let me thank our witnesses for their patience 
in allowing us to get through that cycle of votes. And at this 
particular point in time, we would like to recognize the 
gentleman from Alabama, Mr. Rogers, for 5 minutes.
    Mr. Rogers. Thank you, Mr. Chairman.
    Admiral Hunt, a key criticism of the GAO report was the 
Littoral Combat Ship program is that the Navy did not have yet 
a decision on how it is to be used. As the leader of LCS 
Council for over a year now and a veteran surface warfare 
officer, is there any question in your mind as to how this ship 
will be employed?
    Admiral Hunt. Thank you for that question.
    No, there isn't. I think we know very accurately how we are 
going to employ the ship with each of the modules.
    Mr. Rogers. Would you describe those, please?
    Admiral Hunt. Certainly. The surface mission capability 
will be in the littoral, meaning in close to land. It will 
provide with its gun capability initially, and then, when you 
add on top of that the missile capability, the ability to go 
out and interdict small boats and small vessels that would be 
potentially opposing us as we moved amphibious ships or an 
aircraft carrier through choke points.
    The second piece that that capability provides is it has 
excellent capability exceeding what we have now in our maritime 
interdiction operations, meaning taking a boarding party and 
going over doing antipiracy or anti-weapons-of-mass-destruction 
movement, the kinds of things that we are doing routinely in 
the Gulf of Aden, the Horn of Africa and around the waters of 
the Persian Gulf right now.
    Mr. Rogers. I understand that a key component of LCS 
concept is the mission package; however, does the Navy have a 
plan for utilizing seaframe without the mission packages as 
well?
    Admiral Hunt. No, it does not. In every instant of seeing 
how we would operate the platforms today, it would always be 
inherently with one of the three mission packages.
    Mr. Rogers. Mr. Stackley, the GAO has criticized the Navy's 
LCS program business case, stating that questions remain on 
cost, the time needed to develop and field the system, and its 
anticipated capabilities. Will you address each of those three 
items?
    Secretary Stackley. Yes, sir. In terms of cost, the 
program's cost performance today is very well understood and 
well behaved both in terms of the seaframes of the ship 
production and in terms of the mission packages.
    I think one of the questions or concerns from the GAO has 
to deal with we will call it the program baseline that we are 
measuring against. We owe that to Congress, and we will bring 
that forward. In fact, Mr. Francis described that we get to go 
to a Milestone B long before this hearing was scheduled. In 
fact, we had the mission module Milestone B scheduled for this 
week where we did go through all those details to lock them 
into a formal document that will come forward to the Hill.
    In the interim we do report annually inside of what is 
referred to as a selective acquisition record to Congress, and 
we are performing well within those costs that we are 
projecting. Good learning, good cost performance.
    The second aspect I think you raised was schedule, with 
regards to schedule, again, ship production and mission 
modules. On the ship production side, we have adjusted 
schedules at the both of the shipyards on the order of 4 to 6 
months for the early ships in the block buy, the smart thing to 
do. What we did not want to do was to incur costs or cost risk 
because of overly aggressive schedules within the shipyards.
    The start-up of production on the block buys was somewhat 
disrupted by a gap that had occurred between the first couple 
of LCS ships and the decision to go forward with the block buy, 
and because of that disruption and the transition from earlier 
lead ships to that stable design that we are insisting upon to 
support production of the subsequent ships, there was, in fact, 
lag time that led to some schedule delay. We believe we have 
got that well captured, and today both Marinette up in 
Wisconsin and also in Alabama are performing in accordance with 
those schedules. Got to keep a watchful eye on it because we 
are continuing to ramp up in production, but we think we have 
schedule stability in place, and it is supporting our cost 
projections.
    Mr. Rogers. Great.
    I want to ask you, you described earlier before we had to 
break for votes your history in the shipbuilding business, and 
that what you are doing with this system is consistent with 
what you have always done. Were you surprised at the GAO's 
observation that this was somehow outside the norm?
    Secretary Stackley. I think GAO did a lengthy review of the 
LCS program that I think extended over 12 to 16 months. When I 
read the report, read their findings, my first reaction is we 
need to spend more time with the GAO to outline exactly what we 
are doing and why we are doing it. And we owe that to GAO, we 
owe that to Congress.
    Shipbuilding is different from other acquisition. It is. 
LCS is different from other shipbuilding programs. And so by 
virtue of that fact, we have to explain why those differences 
make sense, and why we are on that path.
    The second aspect of it is GAO asks a lot of questions in 
their report, critical questions. They are fair, and rather 
than providing a short and concise response, I think we need to 
engage with Congress and further with the GAO and provide the 
detailed responses that they warrant, because they are 
important for you all to understand where we are going, and 
that is necessary for us to earn and expect your support.
    Mr. Rogers. Thank you. My time has expired.
    Mr. Forbes. Ms. Speier is recognized for 5 minutes.
    Ms. Speier. Mr. Chairman, thank you, and thank you for your 
service to our country, all of you, and for the important work 
that we are addressing here today.
    Mr. Francis, I am truly struck by your earlier testimony, 
and it reminds me a little bit of our lives in that Admiral 
Hunt in 2010 told Congress that the dual-acquisition strategy 
would save money. Now we hear the Navy is considering changes 
to increase the commonality between the two variants, as I 
recall it, these were two great alternatives that were being 
suggested, and so we really wanted both of them. It would be 
like any one of us saying, gosh, the Lamborghini is beautiful, 
and the Ferrari is beautiful; let us buy both of them, except 
for the fact that it costs a lot of money.
    And I am troubled by the fact that we are purchasing first 
and testing second, and I think the taxpayers of this country 
expect us to be frugal in the way we move forward with this 
effort.
    Now, the GAO had originally suggested that we go slow. I 
actually took that GAO recommendation and turned it into an 
amendment, which was held not to be in order by the Rules 
Committee when the NDA was taken up on the floor. So having had 
that happen, but having the good and sound recommendations that 
you have offered, how do we make sure that this 2-year 
oversight opportunity that we have is actually exercised in a 
way that we just don't say at the end of 2 years, well, too 
bad, we missed the window, we are going to build all these 
ships, they are not going to meet the standards, they are going 
to cost--the cost overruns are going to be extraordinary, and 
that is just the way it is?
    I mean, we as Congress, we as this committee, I believe, 
have a responsibility to make sure that what we are building 
makes sense, makes sense for the long term. And I feel that 
there is this rush to construction, and we will worry about the 
details later.
    So could you comment on that, please?
    Mr. Francis. Definitely.
    We made a recommendation in August of 2010 that because 
operational testing was slipping, there were some problems with 
the mission modules at that point, and the ships and the 
modules were kind of getting out of sync. We recommended to the 
Department, resequence these and get them back in line so that 
you know what the combined capability of the seaframes and 
mission modules are before you get into operational testing. 
Now, the Department agreed with that, but since then the 
seaframes, if anything, have gone faster, the modules slower.
    Ms. Speier. So they agree, but they then don't follow 
through with what they say?
    Mr. Francis. No. The strategy that they embarked on was a 
different strategy than what we had recommended.
    Ms. Speier. So how do we trust anything?
    Mr. Francis. Well, I think you have to hold the Department 
accountable. I mean, we can talk about, for example, mission 
modules, but it takes four increments for those mission modules 
to meet minimum capability. So the things we are talking about 
what we know now does not meet minimum capability for the Navy. 
It will be 2017 and 2019 respectively before those increments 
are operationally tested.
    So I think that is where I say you have to exercise 
prudence in how many ships and modules you approve before they 
have gone through that.
    Ms. Speier. We are full speed ahead right now. That is what 
the NDAA [National Defense Authorization Act] recommends. That 
is not what you recommend. The Navy certainly recommends that. 
And I guess I want you to give us a road map on what we should 
do if we are going to do a diligent job on oversight over the 
next 2 years. What would you provide us as a road map?
    Mr. Francis. A couple of things. We mentioned the studies 
that we think the Navy should report back to you on on 
potential design changes. You should know that in the next--in 
this 2-year window; an approved program baseline for each of 
the increments of the mission modules. I don't think we can 
afford to--you know, as we have learned with the modules, if 
something doesn't work we have a different game plan; if this 
doesn't work, we have a different game plan.
    I think you should be able to hold the Department 
accountable. You said you were going to do this this year and 
this this year, and hold them accountable for that. And I would 
take a real hard look at the 2016 block buy. If that is too 
many ships or takes you past operational testing, I think you 
have yielded a lot of your oversight authority. So that would 
be the outlines of what I would say.
    Ms. Speier. Thank you. I yield back.
    Mr. Forbes. Mr. Ribble is recognized for 5 minutes.
    Mr. Ribble. Thank you, Mr. Chairman. And I want to 
especially thank you and ranking vice member, Vice Chair 
Courtney, for allowing me to come in.
    I also want to thank the witnesses for being here today, 
especially the GAO. You know, oversight is an important part of 
what Congress does, and it is part of our responsibility to do 
this, but I would say as well that a lot of what I have read in 
the report is eerily similar to other reports on other 
shipbuilding programs. And so shipbuilding is a process, not 
just something that today we are going to do it, and tomorrow 
it is there and it is perfect. There is a process that goes on.
    And the report that you gave on LCS is similar to those 
reports that GAO did in the 1970s, and other programs that 
became very successful in the 1990s, and another ship that 
became very successful. And so in one degree where I might take 
and have some disagreement with some of the findings in the 
report, I think the report is important, because it sharpens 
all of us. It helps us move forward and make improvements to 
the Navy response, Congress' response, and things go forward. 
So thank you for submitting the report and your testimony this 
morning.
    Mr. Stackley, I appreciate you being here, and I would like 
to talk just a little bit about the cost of the ship and what a 
delay in production might do for that cost. It can either 
improve cost or delay it. LCS 1 cost the Federal taxpayers $637 
million, way, way above budget. However, the LCS 5 had dropped 
down to $437 million, LCS 11 is at $358 million, and LCS 15 at 
$348 million, all trends going in the right direction; in fact, 
nearly a 50 percent reduction in cost over the course of the 
project.
    What would a delay do to that?
    Secretary Stackley. Yes, sir. The most critical aspect for 
any major weapon system program when it comes to cost is 
stability, stability requirements, stability of design and 
stability of funding. Any disruption to the production of the 
LCS, or any other major weapons system program for that matter, 
but more so in shipbuilding, you are going to suffer--first you 
are going to lose the capability that you are going after. You 
are going to suffer cost growth that starts in the vendor base, 
because the vendor base, which is a national vendor base, is 
going to be stopping production particularly on any unique 
components that are associated with that ship program, and then 
it is going to hit the shipyard itself where the workforce, the 
skilled workforce, that you are building up, in this particular 
case the LCS program, they are going to have to stop and start 
again, and you have to deal with hiring and firing cycles, 
green labor and things of that nature.
    It is extraordinarily disruptive, and the unique case of 
shipbuilding where you are in a 4- or 5- and, in certain cases, 
carriers where get up into the 9-year range of when you start 
and complete construction, you have got to ensure stability of 
that production workforce going from ship to ship to ship, or 
you are just going to continue to suffer sawtooth in cost 
growth.
    So that is one of the things we guard against, and the way 
we guard against it is to drive stability into the program. The 
LCS 1 and LCS 2, the front end of this program, absolutely not 
stable. The design was not complete, the requirements were 
moving, the production workforce was not ready, the government 
was not ready, and that is why you saw a $637 million number at 
the start of the program.
    We have worked to nail down all those aspects that bring 
stability, and then lock it in the long-term agreement 
associated with the block buy so that the vendor base, the 
shipbuilder and the government can all pull in the same 
direction to drive costs down to where we are now taking a ship 
that started off in the $600-$700 million range, and we are 
locked into a fixed-price contract at prices that are half of 
that years later.
    Mr. Ribble. It is clearly going the right direction.
    Admiral Hunt, the U.S. Navy has been at the forefront of 
national defense, well, since the beginning of the Navy. Thank 
you for your service and the work that you have been doing.
    What impact would a delay have on the Navy's ability to 
meet its future requirements?
    Admiral Hunt. The LCS will immediately provide capability 
forward. Initially it is one of getting out there and 
developing contact. It is the presence piece, which is 
essential from all the forward numbered fleet commanders' 
perspective. So we are out there developing relationships with 
allies, with countries that are deciding which camp to play in, 
and we are sending signals to those who could be adversaries.
    So presence is first and foremost on what we do day in and 
day out. When you combine that with the capability that each of 
the mission modules bring, credible combat capability, a huge 
force multiplier that will immediately go into the calculus 
that those numbered fleet commanders will use in operating 
within their area of responsibility.
    And I would make the point that each one of the first 
increments meets or exceeds current capability that we have in 
the United States Navy. So while it is true that some of them 
have up to four increments, and we are providing capability 
that we may not demonstrate fully until towards the end of this 
decade, that first increment that will be developed in the next 
year or so for all of those meets or exceeds everything we 
have, and that is an important piece that can't be overlooked.
    Mr. Ribble. Thank you for your testimony.
    Mr. Chairman, I yield back.
    Mr. Francis. Mr. Chairman.
    Mr. Forbes. Yes, Mr. Francis.
    Mr. Francis. I think the things that Mr. Stackley said are 
true in terms of bringing the cost of the ship down, but, 
again, I think we have to remember it is a first-in-class ship 
of a new class of ships. So we have some questions on the 
mission modules, but, you know, even if you said the seaframes 
worked just the way they are supposed to and the modules worked 
the way that they are supposed to, we still have the 
operational concept. Is that going to work? Are we going to be 
able to do the maintenance concept the way we think of it?
    The real question if I look in terms of cost risk, I think 
seaframes the least risk, modules are a higher risk, O&S 
[operations and support] costs are probably the biggest risk. 
So it is not just a first-in-class ship, it is a first in class 
of a new class and a new concept of operations. And we are in 
rate production, so the caution I would offer is the business 
imperatives for keeping things the way they are should not 
outweigh the programmatic and testing imperatives that will 
prove, can the ship work.
    Mr. Forbes. We have been joined by ranking member Mr. 
McIntyre. He has graciously deferred his questions so Mr. 
Bonner can ask his at this time. So we recognize Mr. Bonner for 
5 minutes.
    Mr. Bonner. Thank you, Mr. Chairman. And as others have 
said, thank you for holding this hearing. And to our witnesses, 
thank you. I think it has been very enlightening, the questions 
have been thoughtful, and the responses have certainly been 
appropriate, I think, to help answer some of the questions 
about this very important program.
    There have been several comments made by some of our 
colleagues, Mr. Chairman, and so I am going to try to ask one 
question of the admiral, and then I am going to let him answer 
it. But I am going to offer a quick observation before he does.
    One of the comments was that it appears that LCS might be 
of little value to the Asia pivot strategy. So my question 
would be, what else does the Navy do in the South Pacific 
beside planning on fighting big wars? I mean, are there not any 
other missions the Navy does? And you can think about that as I 
am opining about some other facts.
    I mean, I am in the last few days of my tenure in Congress. 
I have worked up here for 18 years, I have served for 10 years, 
it has been the greatest honor of my life. One thing that I 
have been struck by is the fact that we really never know when 
we wake up what the day holds. And I certainly can't look into 
my crystal ball, I don't know if the GAO can. My father worked 
with the GAO when he was going to law school a long, long time 
ago, so I hold you in great respect. But I don't know that any 
of us are really that qualified to predict what the world's 
challenges are, but here are some facts.
    There are 217,000 miles of inshore coastline, the 
littorals, around the world. Our Navy can't be every place, 
obviously, but only our Navy, only our military can provide the 
stability that the world needs. And it is hard for me to see, 
and I know the chairman has talked about the concern he has and 
many of us have about the decreasing number in the fleet. We 
have got, what, 285 ships today? I was with the former Navy 
Secretary a few weeks ago, who worked for President Reagan when 
we were shooting for a 600-fleet Navy.
    My friend and colleague from California talked about 
comparison between the Ferrari and Lamborghini. I would say 
that the LCS isn't either, not compared to the cruisers, to the 
destroyers and other ships that we have which are also a vital 
part, but I would say it is probably more like a Malibu or a 
Taurus. It provides a function, especially in those inshore 
waters that perhaps we don't need the more expensive 
Lamborghini or Ferrari to provide that mission.
    So I would be happy to now ask the question, and if the 
Admiral or any of the panelists to provide an answer.
    Admiral Hunt. Congressman, thank you for that question. It 
is a very insightful one, and it speaks exactly to the way I 
think that the Navy over the next decade or two is going to 
contribute directly to our national defense.
    The Navy does more than fight these wars. Ideally we will 
shape and understand an area that we are operating in to 
prevent the conflict. We do that by contact. We do that by 
contact with other nations. To have contact we must have 
presence.
    Your comments on being out and about, I think, are exactly 
right. The influence that we have by having proportional 
capability with nations around the world is absolutely 
essential. That is how you develop the relationships, develop 
trust and confidence between the nations.
    There is some question in the Western Pacific right now on 
the resolve of the United States. The presence of Freedom in 
Singapore is being used by Admiral Haney, our fleet commander 
in Pearl Harbor, and by Admiral Swift, the 7th Fleet commander 
out there, and they see great value.
    The ship operates by exercises and by conducting operations 
with those national partners out there. And what we are getting 
in feedback is that it resonates with those potential partner 
nations, and they see that as commitment of the United States 
to be in the region, and that contributes directly to increased 
stability.
    So one of the key advantages that we get from LCS is the 
unit cost is low, the number of people manning them and still 
providing credible combat power is low, which is good for 
lifecycle costs, and the ability to operate at sea in the 
manning construct that we use of having two ships, three crews 
and rotating them gives us about 50 percent optempo 
[operational tempo], which is much higher than the standard 
one-third that we get. So for about 52 LCS, I get the 
equivalent presence of about 100 destroyer or cruiser ships. 
And I would offer that the smaller ship of the lower draft 
allows us to reach many of the places that we can't get in and 
develop that contact and relationship with others right now.
    Vitally important, you can only do that if the nations you 
operate respect that credible combat power. That is what you 
get right now on that first increment of LCS surface warfare 
module. That is exactly what you will get with the MCM mission 
module, which is going to be hugely important and send a signal 
in the 5th Fleet area of responsibility, and I am confident we 
will see the same thing with the antisubmarine module.
    Thank you, Congressman.
    Mr. Bonner. Thank you, Mr. Chairman.
    Mr. Forbes. And this committee would like to thank Mr. 
Bonner for his service. We know you will be leaving us soon and 
get to sleep in your bed more instead of traveling back and 
forth. But you have done a great job for your constituents and 
for your country, and we appreciate that service.
    And we appreciate all the questions. I just have a few, and 
then Mr. McIntyre may have a few that he would like to wrap up 
with. And I come in a unique position, because I am not 
predisposed one way or the other. I want to try to make sure we 
are answering the questions.
    I think my friend sitting to my right, Mr. Hunter, would 
probably suggest that--not that the LCS is not a good ship, but 
sometimes we get the impression it is like we walked into a 
department store, and we saw this wonderful thing, and we 
bought it, and we get home and say, now what do we do with it? 
You know, it can do so many different things.
    And I think we heard today, we talk about presence, and 
that is a very valuable thing that we need to address. In fact, 
we had Admiral Roughead, who testified just yesterday, who 
talked about the importance of process as we make this shift. 
We have also heard Admiral Roughead talk about the enormous 
delays we have in being able to get anything deployed. From the 
concept to when we do it, sometimes that can be as much as 22 
years. And this is not an infant. I mean, we have been dealing 
with LCS for over a decade, fair assessment, I think, Mr. 
Secretary.
    Mr. Hunter raised a good question to just put on the table, 
Admiral. If we get into a major conflict--and that is what we 
have to constantly be recognizing; just as Mr. Bonner said, we 
don't always know what we end up with on any given day--
presence may not be enough. I mean, we may need to look at 
capability there. And then again I think Mr. Francis at least 
raises a good question: What happens if the operational testing 
comes in wrong, and we have already locked into making all of 
these purchases?
    So I guess while what I would throw out to each of you to 
weigh in on is a couple of things. Number one, how do we strike 
that balance? Do we have the right balance?
    And number two, has the Department done the analysis, not 
just to say what we can do with the LCS, I know it feels pretty 
comfortable with that, but what we really are going to need 10 
years down the road, 15 years down the road. Because as you 
guys know, when we see these shipbuilding plans, they are 
fantasies because we are a billion dollars short of where we 
can build them, so we are not going to be able to build all 
those things.
    And then particularly I would like you to laser in on the 
development schedule for the modules versus the seaframes, are 
we on track there? Do we need to kind of modify that? What 
sometimes we worry about is our schedules, they are going to 
create a situation where we deliver an immature mission module, 
because, you know, we have had some people raise the fact that 
by the time we get our mission modules, we might have used 25 
percent of the whole life of some of these seaframes.
    So could any of the three of you address those as you deem 
appropriate?
    Secretary Stackley. Mr. Chairman, let me go ahead and get 
started and then allow Admiral Hunt and Mr. Francis to join.
    First operational test risk. The entire strategy for LCS 
development seaframe plus mission modules is a risk-management 
approach where, by breaking down the mission modules into these 
increments, we are bringing to the fleet a capability that is 
today off the shelf, it is off the shelf. So the risk is not a 
technical, there is not discovery involved. What we are doing 
is we are integrating off-the-shelf capabilities onto a 
platform that was not designed as a truck, it was a truck--
space, weight, power, cooling--to handle these mission modules. 
And it becomes an engineering issue associated with the 
details, those interfaces, and operating on and off the ship as 
opposed to an operational test risk where we are going to take 
a high-risk new system out and determine whether or not it 
works.
    We know these systems are going to work. We know they are 
going to work. The 60 [SH-60] works today. It is the workhorse 
for the fleet. The remote mine-hunting system, we have 
demonstrated 800 hours of operational testing of that system, 
and so it is well beyond its mean time between failures that we 
were targeting for.
    The AQS-20 Alpha sonar associated with the mine 
countermeasure mission package, that is a 20-year-old sonar. We 
know exactly how it works, and what we are doing is a preplan 
product improvement so that we can get it to the next level of 
capability.
    The 30-millimeter gun works. It is on the LPD-17 class.
    You write down the list of those systems that we are 
bringing in that first increment, the systems work. The risk is 
extremely well managed. We are working the engineering details 
of integrating those capabilities into that platform with the 
trained crew, and demonstrating its operational performance 
against those key performance parameters.
    Mr. Francis is exactly right. We don't meet the final level 
of capability that we are targeting for the program until the 
fourth increment of mine countermeasures, third of the surface 
warfare, and really off the bat with ASW [antisubmarine 
warfare]. But those are planned, those are scheduled, and we 
are executing in accordance with those schedules except for the 
impact of sequestration, continuing resolution and budget 
reductions, which is putting our test program at risk, because 
when we pull that much money out of our test program, that 
slows us down, and we are having to try to recover gracefully 
from that.
    Mr. Forbes. Let me let you take just a breath there. Just a 
minute. I want to come back to you, Admiral.
    But, Mr. Francis, you have heard the Secretary's very 
logical, rational reasoning there. What was your response to 
that?
    Mr. Francis. I see things differently, Mr. Chairman. If we 
go through what we are learning on the mission modules, and let 
us just take mine countermeasures I was going through here, the 
sonar is an off-the-shelf system, but the shelf is a little 
dusty. The sonar has not been able to detect mines as we have 
expected. It has had some false positives. It needs preplanned 
product improvement. We have some operational work-arounds. The 
same is true for each of the four systems in that first 
increment. They haven't worked the way we thought. We also 
thought that the OASIS [Organic Airborne and Surface Influence 
Sweep] system was going to be able to be towed by the MH-60, 
and that has been scrapped.
    I am not offering this up as, gee, this means the program 
is terrible, but it means we are learning as we go, and things 
may not work out the way that we thought.
    On surface warfare, Mr. Hunter brought up the issue about 
the missile that gives that ship the stand-off range for the 
littorals. So that is the part we don't know yet. That is going 
to be a TBD [to be determined].
    I don't think we can be confident that mission modules are 
going to do what they say they are going to do. And this is 
also developmental testing. This is very structured, benign 
environment testing, experts and maintainers from the 
contractors present. That is not what the operational concept 
is going to be.
    So there is a reason that the law was created for 
operational testing. There is a reason there is a Director of 
Operational Testing Evaluation who reports to the Congress and 
the Secretary of Defense. So what is going on now is not a 
substitute for operational testing.
    Mr. Forbes. Admiral, I know you love this program, and I 
say that in a good way, because you should. What is your 
response to Mr. Francis?
    Admiral Hunt. Again, I thank you for the opportunity to 
respond here. Let me just walk through the different modules 
and give you my perception.
    Again, with the surface warfare module as it exists right 
now, we do have the guns on there that are equal to the 
equivalent replacement platform if you look at it for a 
specific capability, which would be the FFG-7, Oliver Hazard 
Perry class. She additionally comes with an SH-60 Romeo armed 
helicopter. That provides us the reach and stand-off 
capability. And eventually we will be augmented by the missile 
system when we replace NLOS. But providing the helicopter and 
providing the guns right now is greater capability than what we 
currently have, so I am very comfortable with that, and I think 
that will be used in a very good way, and it will continue to 
get better as we evolve.
    The MCM [mine countermeasures] capability, we have had some 
reliability problems with the sonar. We are working our way 
through there. We plan on taking that IOC [initial operational 
capability] testing here in fiscal year 2015. And I think we 
will demonstrate that that gives us about twice the capability 
for hunting than we currently have on Avenger class.
    That is very important as we kind of take a look at the 
CONOPS on how 5th Fleet and 7th Fleet would use this. It is 
hunting and avoiding in round 1; neutralizing probably in round 
2, and only when you must. And the fact that we do this without 
putting the ship in the minefield greatly provides security to 
our sailors. So, again, I think we know how we are going to use 
that, and it provides value added.
    For ASW, not only does it provide an excellent, excellent 
littoral in the shallower waters capability, the fact that we 
have this variable depth sonar so we can go below this layer 
and get better visibility into submarines, that will develop 
into a capability where the ship fights alongside the carrier 
strike group in different phases.
    To Congressman Hunter's, you know, comments about how you 
would use this in a Western Pacific scenario, I would very much 
appreciate the opportunity, sir, to come back and at a 
classified level walk through that and give you some of the 
ideas that we are looking at. We are developing those; we 
continue to do that. Again, as I said, we are doing that war 
game right now today in Newport, Rhode Island. We will wrap 
that up on Friday. We continue to evolve that using the 
capabilities in different ways.
    When you ask, is LCS going to work in the Western Pacific? 
Yes, I think the surface module works very, very well with what 
we have got in the initial evolution of a potential spark to 
warfare. The ASW platform will be good for being out and about 
should things go hot, and a very important thing in protecting 
the carrier and the amphibious ships. And the MCM capability 
that she provides may be at the wrap-up at the end. The fact 
that she can do all of those, understanding you have to time-
sequence it, war is not an immediate overnight thing, it takes 
time, and that is part of the logistics aspect of tying it 
together in an effective way, and we are looking at doing that.
    Mr. Forbes. Admiral, I don't want to speak for Mr. Hunter 
or for my good friend the ranking member, but I think at least 
all three of us would love to have not just that briefing, but 
I think the committee would love to have a briefing.
    Mr. Secretary, I know that you are the guy that builds the 
ships once they tell you what we need to build, you know, but 
at some point in time we would love for the Department to come 
over and give us a laydown of this is what we think the risks 
are, this is why we need these capabilities, this is the 
projection, so we are looking at that in a holistic picture. 
What we want to make sure we are not doing is creating a 
strategy by acquisition. You know, we want to make sure we have 
the strategy, and then we are getting what we need to to get.
    And, Mr. Secretary, one criticism that has come forward is 
that we do have two designs. Those designs are moving in a 
similar path. I had the privilege of going out and seeing both 
of them back to back, near Mr. Hunter's home turf, and they are 
incredibly different. And when you ask both crews which one is 
best, needless to say, it is the one they are on. But then they 
said something unique: We may have to have a hybrid of the two. 
But I think what Mr. Francis would say, without putting words 
in his mouth, is that you are committing to buying all of this. 
At what point in time do we sit back and say, well, do we need 
some design changes on these vessels, and by the time we get to 
know what we need, have we already locked in to what we are 
going to buy?
    So how are we protecting against that, Mr. Secretary, and 
do you see any proposed design changes that might be 
forthcoming?
    Secretary Stackley. Yes, sir. We are capturing lessons 
learned, and we are looking at opportunities. Mr. Francis 
described studies that we are doing. In fact, as previously 
discussed, we are specifically looking at C4, command, control, 
communications, computer, and information systems, as well as 
the combat system, looking at individual elements, plus the 
command and decision system that rides on the network. Those 
are the principal areas.
    In the specific case of LCS 1, we discuss the ship service 
diesel generators. We are looking real hard at the design that 
we have in place and making the upgrades to that design that 
are necessary to support the platform better.
    So those evaluations are taking place. I described loading 
the combat management system onboard the LCS 2 variant with two 
other versions that are more common to the Navy. We are on that 
path. We are looking at the individual components associated 
with the combat system and just evaluating is this meeting our 
needs most effectively; are there other alternatives that we 
should consider; and if so, what is the cost, what is the 
benefit; and what would be the strategy for incorporating those 
without driving costs into the program?
    Mr. Forbes. Mr. Secretary, would not Mr. Francis come back 
and say that was his point, that we are looking at these 
modification designs, but are we going to be locked in too far 
on our buy?
    Mr. Francis, let me not put words in your mouth. What would 
your response to that be?
    Mr. Francis. I think that is a fair characterization, Mr. 
Chairman. So to these, I think these are changes to the 
existing designs that could be considered. Will they affect the 
learning curves that we have enjoyed on the current ships? 
There is, I think, the question, then, going forward in block 
16, which could be flight 1 of the ship, if we are looking at 
the shipbuilding plan, the 30-year plan, it has lower 
quantities. Is that going to a single design, whether it be a 
hybrid design or one of the other two? That would be much more 
significant.
    Mr. Forbes. Mr. McIntyre, do you have any questions that 
you would like to pose?
    Mr. McIntyre. Thank you. I know our time is running short, 
and I will just ask quickly, and thank you for conducting this 
hearing.
    Thank you, gentlemen, for your commitment to helping our 
U.S. Navy continue to be the best that it is; in fact, in the 
entire world.
    Having been upon LCS 1, the USS Freedom, it is an 
impressive ship, very interesting, and obviously, with the 
capabilities that it has, something that we want to make sure 
that we continue to support.
    I have a couple of quick questions. The Joint High Speed 
Vessel [JHSV] has been added to the LCS Council's purview. How 
are these programs related, and does this mean the Navy is 
considering adding the Joint High Speed Vessel to meet some of 
the LCS missions?
    Admiral Hunt. The CNO made a decision to add the JHSV 
program to the LCS Council because he was impressed with, I 
think, the degree that we were digging into the program, 
finding new ways to improve it. He liked the process aspect of 
it. So he asked us to take a look at JHSV, one, because there 
is some commonality with LCS 2, where there may be some 
efficiencies; and then, two, take a look at what we could do 
with what I will call roll-on and tie-down capabilities to 
potentially enhance the capability of that platform to do other 
missions.
    So you have got this group of folks that has been gathered 
and working LCS for almost a year now. With a lot of thought 
and different ideas, it is a quick adjustment to roll in 
another similar size, shape of a different mission ship and 
take a good hard look at that and see what are the 
opportunities, again, for efficiencies and, two, to utilize as 
comparable ways to interact with LCS, and there certainly are 
many. We could include that in maintenance packages or training 
packages afloat when we start operating the LCS in small groups 
forward.
    So we are exploring things, a little programmatic change, a 
lot of research and idea, then to come back, be considered, and 
take it through the normal process that we have for any 
shipbuilding program.
    Mr. McIntyre. How long is that evaluation going to take, do 
you think?
    Admiral Hunt. It is open-ended. Right now we are kind of 
targeting having this thing wrapped in about a 6-month period, 
but I haven't been given a completion date by CNO.
    Mr. McIntyre. Secondly, there have been a number of press 
reports referring to internal Navy studies questioning the 
combat capability of the LCS. I don't know if we quite hit that 
head-on today. And as we are wrapping up, maybe we ought to go 
in and hit it head-on so those questions don't linger.
    What design and requirement changes to the LCS Council--is 
the LCS Council considering to address these concerns? I know 
you were touching some on that in answering Mr. Forbes' 
questions, but I just want to make sure there is nothing else 
out there. And what impact would these changes have on the 
seaframes themselves?
    Secretary Stackley. Let me go ahead and take that one.
    First off, both versions, installed combat systems, meet 
the requirements. And what we are doing is we are looking at 
alternatives to improve upon that, either improve upon that 
capability, or drive some further commonality with the broader 
fleet. So in that regard, we are specifically, as I described, 
looking at the communication suite. The LCS specification, we 
did not specify what communication suite to install onboard.
    Com [communication] suites are volatile in terms of 
technology. The rate of change of technology out there for a 
communication suite insists that we are going to be continually 
upgrading these systems in the ship's life. And so we are 
taking a look at, okay, if we are going to be refreshing and 
upgrading the communication suite, then is there a point of 
incorporation where we take a more standard common suite in the 
Navy and then, when we upgrade, replace it with that standard 
suite? And, in fact, we are on that path.
    And now when you talk about what is the impact, we are 
talking about cabinets in the--basically cabinets landing on 
foundations and potentially some antennas. We are going through 
what that means in terms of drawings, in terms of production, 
in terms of equipment procurement, so we will have both a cost 
and schedule assessment in that regard.
    On the combat systems side, we are looking at a couple of 
areas. One is one of the principal batteries on the ship, which 
is in the self-defense system. Today LCS 1 and LCS 2, we have 
different systems that we are going to move to a common system, 
referred to as SeaRAM. It is basically a RAM [Rolling Airframe 
Missile] missile launcher mounted with a close-in weapons 
system radar system, gun mount, and that provides tremendous 
capability with minimal impact to the ship, but some price 
delta in terms of the cost of the equipment. Well worth the 
investment, and so we are committed to heading down that path. 
Otherwise we are taking a look at the different three-
dimensional air search radars on board and assessing and 
comparing those to determine does it make sense to go to a 
common design in that arena.
    Mr. McIntyre. Thank you, Mr. Secretary.
    Thank you, Mr. Chairman.
    Mr. Francis. Mr. Chairman, can I offer one comment on that?
    Mr. Forbes. Absolutely.
    Mr. Francis. One of the things we haven't talked about in 
design, and it is more, I would say, mundane than combat 
systems and so forth, is we have added 20 berths, I believe, to 
this ship. To be determined, then, is how to do the 
habitability requirements that go with it, you know, the water, 
the food, the storage and so forth, if you are going to house 
that many more sailors. That could have design implications 
because of the space limitations on the ship. So not as 
glamorous, but something that would have to be looked at.
    Secretary Stackley. And I would just counter, this isn't 
point/counterpoint, but we added the bunks with a clear view on 
what the capacity was of the installed capacity for 
habitability on the ship, because to go beyond that, in fact we 
would be looking at extra chill boxes, extra stowage for the 
crew gear and things of this nature. So we believe right now we 
have it about balanced, and if we go beyond that, in fact, we 
are going to have to take a look at the installed habitability.
    Mr. Forbes. And it is not point/counterpoint, but it is 
question and answer, and we appreciate you guys doing that.
    I want to come back to what I started with and to say that 
I have absolutely no problem that we don't all agree on this. I 
think that is the strength of our Navy and the strength of our 
way of government, that we can ask these questions and get 
answers. I want to compliment all three of you for your 
professionalism, the teams that work with you, and for your 
ability to come in here and give us information. You know, we 
don't always get that. You all have been wonderful throughout 
this in answering the tough questions.
    The other thing I want to say is I have incredible 
admiration for my friend Mr. Larsen, but I disagree a little 
bit with the fact that I don't want to read any more about this 
book. I want to read about this book for years to come, I want 
to read about the stories of how the LCS saved lives and 
defended this country, and that is why we are doing this, 
because sometimes the first few chapters are the heavy reading 
you have got to get through, and that is what we are all 
working through now, to make sure that we have a happy ending 
to this saga as it goes forward.
    And the other thing is while we believe in this program, we 
don't want to wake up and have half our Navy LCSs. You know, I 
think none of us want that. We want to make sure we get the 
right mix, the right balance as we do it.
    So I want to thank all of you. I told you at the beginning, 
also, I want to give you the final wrap-up of anything you 
think we didn't cover that we should have, any comments that 
you think were misconstrued. This is your chance. And, Admiral, 
if we can start with you, because that is where we started our 
hearing, love to give you the last word, and then we will go 
right on down the line.
    Admiral Hunt. Well, thank you, Mr. Chairman. I appreciate 
the opportunity.
    Again, I think we have covered most of the points that I 
wanted to get in there, but I would tell you, this is the 
capability that we need forward. We need numbers, and we need 
presence out there. The capability that we have in the existing 
mission modules and those that are quickly to follow, to 
include the MCM, is one that is vitally necessary, and it will 
be used. And our forward fleet commanders are planning on using 
this capability in a very important way.
    I feel confident that the hulls themselves are going to be 
a great platform in which different payloads, the mission 
modules, will hopefully continue to evolve for the life of the 
ship. As Mr. Stackley has pointed out, most of the components 
that go into mission modules are from other existing programs 
and have proven capability. It is a matter of tying them 
together now and making sure that we can operate them in a 
proper way. To really demonstrate that, I want to get them 
forward in the waters that they are going to operate. That is 
hugely important to those of us that sail ships, and we are 
ready to do that.
    We are going to deliver a good product. I am very confident 
in the program, the leadership that we have, and I really 
appreciate the opportunity to be here, Congressman. Thank you, 
sir.
    Mr. Forbes. Thank you, Admiral.
    Mr. Secretary.
    Secretary Stackley. Yes, sir, just a few comments.
    Clearly the program had missteps at the front end of the 
program, clearly. But the objective was well placed, and we 
have spent time and effort, the Department plus the Congress, 
to get the program back on the right track, and we believe that 
that is where we are. We believe that the performance continues 
to improve on the program, and while we have different 
assessments of risk that remains, we believe, in fact, we have 
got a good risk-mitigation plan in place.
    The GAO has raised some critical questions, as I described 
earlier. Rather than answer those in short statements, what we 
owe you and we commit to you is to come back and go through in 
detail what our plan is, why we believe it makes sense, and 
look for your continued support.
    And finally, I will end where I started, which is today we 
are at 286 ships. The requirement is 306 ships. We don't get 
there without completing this program. It is the most 
affordable ship in the Navy. It does deliver capability; not 
simply capability that we need near term, far term, but filling 
critical gaps that today place vulnerabilities in terms of our 
ability to perform our mission around the world. And so we hold 
this as a priority inside of our shipbuilding program, and we 
are committed to executing and retiring those risks that we 
have discussed today.
    Mr. Forbes. Good, and thank you, Mr. Secretary.
    Mr. Francis, I think you would probably say ditto to 
everything they said, and then you would say but, and we are 
going to let you do the wrap-up.
    Mr. Francis. Thank you, Mr. Chairman. It has been a 
pleasure to be involved in the discussion, and I think, as you 
know, while we have differences, I really respect what Mr. 
Stackley and Admiral Hunt are doing. And I think we are all 
interested in the ship reaching its full potential, so we are 
all part of the same government.
    I would say, you know, to pick up on Mr. Stackley's 
metaphor, if the program is on track, that is good, but we 
don't want it to be on rails that we can't make adjustments 
that we may have to make in the future.
    And I just end on the note, let us not forget about the 
maintenance concept. You know, in other programs, other ships, 
aircraft, if the components aren't as reliable, they need more 
maintenance, need more spares, you can overpower that situation 
with more assets. But LCS will have an austere crew. It is not 
going to have a lot of space for spares on the ship. It has to 
be reliant on offshore support for the ship to stay 
operational. So there is no real plan B there, and let us just 
keep that in mind as we go forward. I think working out that 
maintenance concept and making sure that crew can handle that 
ship and keep it operational that far away from its log 
[logistical] support, very important.
    Mr. Forbes. We thank you for your questions you raise, 
valid good questions; Admiral, for your passion for this 
program. Mr. Secretary, thank you for your commitment to say 
you are going to come back and give us those responses so that 
we make sure the program is going in the direction that we need 
to go.
    And with that, Mr. McIntyre, if you don't have any other 
comments----
    Mr. McIntyre. No.
    Mr. Forbes [continuing]. Then we are adjourned. Thank you 
all very much.
    [Whereupon, at 12:35 p.m., the subcommittee was adjourned.]
      
=======================================================================

                            A P P E N D I X

                             July 25, 2013

=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 25, 2013

=======================================================================
     
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================

              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             July 25, 2013

=======================================================================
      
             RESPONSES TO QUESTIONS SUBMITTED BY MR. FORBES

    Secretary Stackley and Admiral Hunt. The Navy is in the process of 
developing the acquisition strategy for the post block buy ships 
(Fiscal Year (FY) 2016 and out). Additional information will be 
provided once the strategy has been developed, estimated to be in late 
FY 2014. [See page 17.]
    Mr. Francis. We believe our recommendations are reasonable and 
important for ensuring well informed acquisition decisions that meet 
the Navy's needs. In regards to the fiscal year 2014 budget under 
consideration, we suggested that Congress consider restricting funding 
for construction of additional seaframes until the Navy:
      completes the ongoing LCS technical and design studies,
      determines the impacts of making any changes resulting from these 
studies on the cost and designs of future LCS seaframes, and
      reports to Congress on cost-benefit analyses of changes to the 
seaframes to change requirements and/or capabilities and to improve 
commonality of systems, and the Navy's plan moving forward to improve 
commonality.
    Waiting until the Navy has presented this information better 
ensures that there is adequate knowledge to support seaframe 
construction because the results of these studies may indicate the 
potential for additional design changes that may have cost 
implications. As shown in the table below, the Navy planned to have all 
of the studies completed by the start of fiscal year 2014. Therefore, 
we would expect the Navy to be able to report the results to Congress 
before any fiscal year 2014 funding restrictions would take effect.


----------------------------------------------------------------------------------------------------------------
           Studies Referred to in GAO Report                         Navy's Estimated Completion Date
----------------------------------------------------------------------------------------------------------------
Command, control, communications, computers, and         Completed
 intelligence (C4I) commonality feasibility study
----------------------------------------------------------------------------------------------------------------
Common Combat Management System Study                    Completed
----------------------------------------------------------------------------------------------------------------
Flight 1 technical trade study (including habitability)  Completed
----------------------------------------------------------------------------------------------------------------
Flight 1 capabilities study                              Completed
----------------------------------------------------------------------------------------------------------------

    Since these studies should be complete the Navy should be able to 
meet this proposed reporting requirement prior to March 31, 2014--the 
last day that the Navy can contractually award funding to the shipyards 
in fiscal year 2014 without compromising its obligations to the 
shipyards.
    With regards to plans beyond 2016, we recommended that the Navy buy 
only seaframes at the minimum sustaining rate--which the Navy defines 
as 1 to 2 ships per yard per year--until it successfully completes a 
full-rate production decision review in order to ensure that decision 
makers are adequately informed prior to committing to future seaframe 
buying decisions. DOD disagreed with this recommendation, stating that 
delaying or slowing future procurements to a minimum sustaining rate is 
unnecessary and will cause an increase in prices. However, DOD also 
stated that it plans to procure future seaframes in accordance with the 
Annual Long-Range Plan for Construction of Naval Vessels that supported 
the fiscal year 2014 budget submission which indicates that the Navy 
plans to procure 2 to 3 ships per year from 2016 to 2027. If the Navy 
adheres to its current long range shipbuilding plan and continues to 
buy seaframes from both shipyards as it has been doing, then our 
recommendation is consistent with the Navy's future procurement plan. 
But if the Navy makes significant changes to its future procurement 
plan, such as opting to downselect to one shipyard (which could 
increase the rate above the minimum sustaining rate for one shipyard) 
or planning a large block buy, we would recommend that the Navy first 
gain key knowledge from operational testing results. We would again 
caution that while slowing production might result in an increase in 
seaframe unit prices, the cost to the government of buying ships before 
validating performance and ensuring that the seaframes still meet the 
Navy's needs might be much greater. Since the Navy is not currently 
under contract for any LCS seaframes beyond 2015, it currently has no 
longer term contractual obligations to these shipyards that could be 
impacted. [See page 17.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             July 25, 2013

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. MCKEON

    Mr. McKeon. Please comment on the capabilities of the ALaMO system, 
the threats it addresses, it's development timeline and funding 
profile.
    Secretary Stackley and Admiral Hunt. The Advanced Low Cost 
Munitions Ordnance (ALaMO) system is currently in science and 
technology demonstration by industry but after successful development 
it is projected to provide all-weather operation and improved lethality 
over existing 57mm ammunition. Once developed, ALaMO would provide an 
extended engagement range and guidance, making it an improved counter-
small boat capability. The system uses a combination of two channel, 
multi-band sensor for target acquisition and Guided Integration Fuzing 
(GIF) in order to maximize warhead lethality.
    ALaMO is not an acquisition Program of Record and therefore not 
currently funded. The estimated development cost to conduct Engineering 
Manufacturing and Development over a five year period is estimated to 
be $225M. The notional development timeline would lead to Initial 
Operational Test & Evaluation (IOT&E) of ALaMO in the early part of the 
fifth year, with an Initial Operational Capability (IOC) later in that 
same year.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. FORBES
    Mr. Forbes. DOD disagreed with GAO's recommendation to only buy the 
minimum quantity of ships to preserve the industrial base until a full-
rate production review is held in 2019. The Navy's most recent long-
range shipbuilding plan states that the Navy intends on purchasing two 
ships per year in fiscal years 2016-2018, followed by three ships per 
year in 2019. This is the minimum rate if there are two shipyards 
building LCS. Does the Navy's disagreement with the GAO recommendation 
mean that it has chosen to downselect to one shipyard as part of its 
acquisition strategy going forward?
    Secretary Stackley and Admiral Hunt. The Navy's decision to 
continue procuring two ships per Fiscal Year in FYs 2016-2018, followed 
by three ships per year in FY 2019, reflects the need to remain on the 
critical path to meeting the Navy's Force Structure requirements as 
outlined by the Chief of Naval Operations (CNO). The LCS shipbuilding 
profile is in alignment with the CNO's 2012 Navy Force Structure 
Requirement and does not reflect the outcome of an acquisition 
strategy. While the Navy is mindful of the need to preserve the 
industrial base, the Navy disagreed with GAO's recommendation due to 
the need to maintain the flexibility to consider the appropriate 
procurement strategy in the context of the industrial base as well as 
Department of Defense Strategic Guidance and the CNO's Force Structure 
Requirement.
    Mr. Forbes. The former Under Secretary of the Navy and others have 
noted that each variant may be better suited for certain regions and 
missions; has the Navy begun to assess the relative advantages of each 
seaframe design and how will this affect the next contract award?
    Secretary Stackley and Admiral Hunt. The Navy is evaluating its 
follow-on acquisition strategy, which includes assessing the advantages 
of each seaframe design. As part of this acquisition strategy, the Navy 
will consider a number of factors in making its decision including 
maintaining competition, overall cost and affordability, each variant's 
operational performance, as well as the industrial base. All of these 
factors will be assessed in the context of how to best meet the CNO's 
Force Structure Requirement.
    To date, both LCS variants provide the operational capability 
required by the Navy and the Navy's decision to continue production of 
both variants of ships was founded on the additional savings achieved 
in procurement as well as the benefit to the industrial base. As the 
two designs become more prevalent in the Fleet and gain additional 
operational time, the Navy may find that some capabilities are enhanced 
on one variant over the other and will evolve the ships as has been 
done with past shipbuilding programs.
    Mr. Forbes. Developmental testing to date of the mission modules--
especially the mine counter measures mission module--has shown 
continued performance problems, with the technologies generally not 
operating as intended. If the mission modules do not perform as 
expected in operational testing, how will this affect the Navy's 
planned purchase of seaframes and/or mission packages?
    Secretary Stackley and Admiral Hunt. Navy is committed to achieving 
Initial Operational Capability (IOC) for the three Littoral Combat Ship 
Mission Packages, and following IOC each mission package will continue 
to provide improved warfighting capabilities to the Fleet.
    Through time-phased fielding of capability, Navy will be able to 
rapidly field systems as they mature rather than waiting for the final 
capability delivery. Further, the flexibility of this concept is that 
if a technology does not meet a specified requirement, a determination 
can be made to use the technology because of the operational value it 
provides, or a different technology can be inserted into the mission 
package without having to start a new system program. Currently the 
capabilities of the initial increment of each Mission Module exceeds 
capabilities existing in today's fleet. The result is a savings in both 
reduced fielding time and overall cost.
    As Navy prepares for the next procurement of LCS ships, 
developmental and operational testing of the capabilities of each LCS 
Class and associated Mission Package is being conducted and the results 
will be used to inform future program decisions.
    Mr. Forbes. In your 2010 testimony before the Congress, you note 
that the block buy strategy for seaframe procurement did not require 
the Navy to buy any ships after the first year and did not have 
termination costs, thereby enabling the Congress and the Navy to have 
continual oversight. Given the issues highlighted in GAO's recent 
report, shouldn't we exercise this oversight and allow the Navy to 
pause and figure out the design and capabilities that it wants in these 
ships?
    Secretary Stackley and Admiral Hunt. Navy does not believe a pause 
is warranted in construction of the Littoral Combat Ships or the 
Mission Packages. The required capability of the ships and Mission 
Packages is well defined within its Capabilities Development Document 
(CDD) and it is this capability that has been delivered to Navy with 
the commissioning of USS FREEDOM (LCS 1), USS INDEPENDENCE (LCS 2), USS 
FORT WORTH (LCS 3) and soon, USS CORONADO (LCS 4).
    Since the 2010 testimony, significant strides have been made in 
addressing key risks to ship production. For example, lessons learned 
from the lead ships have been captured and thoroughly incorporated into 
the production planning and processes. Lead ship design deficiencies 
have been corrected and the design is very stable, with design changes 
reduced by 80 to 90 percent in the follow ships. Both shipyards have 
also made substantial investments in facility improvements and 
workforce training which have greatly improved the accuracy and 
efficiency in each ship's construction. The larger vendor base is also 
leveraging the stability provided by the long-term LCS contract to 
drive down cost. As a result of these improvements, the ship costs are 
under control and are contained within the fixed-price contracts which 
limit the Government's liability.
    The LCS procurement strategy has not changed since the Block Buy 
awards in December 2010. Navy will not be required to pay termination 
or cancellation costs if the FY 2014 and FY 2015 ship contracts are not 
funded. However, there are additional costs Navy would be required to 
pay if the FY 2014 and FY 2015 Block Buy ships are not funded. Cost for 
all ships under contract will be increased due to impact of lost 
shipyard workload, inefficiencies, and production breaks in the vendor 
base. The Navy's liability in this case extends to the contract ceiling 
for LCS 5-LCS 16. Additionally, in the event of lost workload at Austal 
USA, the Joint High Speed Vessel program cost would increase. Further, 
insofar as these ships were procured within the framework of the highly 
competitive fixed price contracts, Navy risks significant cost 
increases to procure these ships in future years (which would be 
necessary to meet Navy's requirement). Most importantly, a pause in 
seaframe procurement would cause a significant impact on meeting Navy's 
Force Structure for small surface combatants. LCS is central to meeting 
the Force Structure requirement and pausing production would exacerbate 
Navy's challenge in building to the right mix of ships as detailed in 
the 30 year shipbuilding plan.
    Mr. Forbes. Why was the Navy delegated acquisition authority for 
the mission modules program from OSD? What steps do you intend on 
taking to manage that program, given its continued performance 
problems, delays in achieving milestones and aggressive acquisition 
approach?
    Secretary Stackley and Admiral Hunt. On October 3, 2012, USD(AT&L) 
signed an Acquisition Decision Memorandum (ADM) designating the 
Littoral Combat Ship (LCS) Mission Module Program as an ACAT IC program 
and delegating the Milestone Decision Authority to the Navy. USD(AT&L) 
retained approval authority for the initial Acquisition Program 
Baseline (APB) for the LCS Mission Module Program.
    The Navy will execute the normal, rigorous process to ensure that 
the Mission Module procurement meets the specified requirements, and 
that the costs are well understood. The Navy continues to perform 
annual Navy Gate Review and Defense Acquisition Board Integrated 
Program Reviews with USD(AT&L). Additionally, the Navy will continue to 
rely on the LCS Council, with 3-star flag officer membership from 
requirements, acquisition and fleet stakeholders, to drive actions and 
coordinate all administrative control responsibilities.
    The LCS Mission Modules are currently on track to deliver the 
capability needed by the Navy, and they are doing so within the cost 
targets established for the program. The greatest risk to the program 
is not technical, it is the risk posed by disruption and delay caused 
by continuing resolutions, sequestration and other budget reductions.
    Mr. Forbes. The GAO report clearly lays out the delays in the 
development and integration of the surface-to-surface missile for the 
Surface Warfare Mission Package. According to the report, the Navy 
plans to procure just one Griffin unit with eight Griffin IIB missiles 
by 2015, but now even this plan has been delayed and may be 
reconsidered. What is the way forward on the surface-to-surface 
missile? Is the Navy planning to conduct an Analysis of Alternatives to 
determine the best long-term material solution for this critical 
component of the Surface Warfare package?
    Admiral Hunt. The Navy suspended Surface-to-Surface Missile Module 
(SSMM) Increment 1 (Griffin) activities during Fiscal Year 2013 in 
order to assess alternative solutions which could provide increased 
range and capability. The Navy is also planning on conducting a SSMM 
Resources and Requirements Review board (R3B) in October 2013.
    These events will help determine the SSMM path forward and revised 
timeline.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LANGEVIN
    Mr. Langevin. My understanding of the LCS program is that the ship 
is critical to the Navy's network-centric warfare and intended to 
replace three other classes of aging ships. Understanding the costs, 
schedule, and performance items associated with the sustainment of this 
program is important for us in Congress to make informed decisions 
about the future of the programs. Focusing on the interesting 
developments in USV and UUV technologies being integrated with the 
mission packages, I am concerned by the recent July 2013 GAO report 
that states, ``they do not believe the Navy has adequate knowledge 
about how integrated mission module systems onboard an LCS will perform 
in an operational environment.'' Additionally, the GAO report asserts 
that the Navy will not be able to meet threshold capabilities defined 
in its requirements documentation with mission modules integrated with 
the seaframes until 2019. I'd be interested in your assessment of how 
these critical technologies are being implemented within the LCS 
program given the setbacks within the Mine Countermeasure Modules 
(MCM).
    Secretary Stackley. The Mine Countermeasures (MCM) and Surface 
Warfare (SUW) Mission Packages are being delivered incrementally for 
purposes of controlling cost and risk while fielding initial capability 
in the most rapid manner practicable.
    The initial increments for both of these Mission Packages meet or 
exceed current capabilities in the Fleet today. Each of these Mission 
Packages brings credible combat capability to the Fleet now for SUW and 
for MCM in FY 2015.
    Increment I of the MCM Mission Package uses a semi-submersible 
vehicle called the Remote Multi-Mission Vehicle (RMMV), which tows the 
AQS-20A minehunting sonar set. This system is called Remote Minehunting 
System (RMS) and can operate under remote control, or execute a 
programmed search in an autonomous mode to find mines either in the 
water volume or on the bottom. This system has accumulated over 850 
hours of successful testing to date and is scheduled for Initial 
Operational Capability (IOC) in FY 2015. Increment II will incorporate 
an unmanned surface vehicle to conduct sustained influence minesweeping 
capability, and is scheduled for IOC in FY 2017. The last planned 
increment will use the Knifefish Unmanned Undersea Vehicle (UUV) for 
buried mind detection, and is scheduled for IOC in FY 2019.
    Mr. Langevin. We recently held a hearing on the Asia-Pacific 
Rebalance; I'd be interested in hearing your thoughts on how the LCS 
would be utilized within an A2/AD environment.
    Secretary Stackley and Admiral Hunt. LCS, with a surface, anti-
submarine, or mine countermeasures Mission Package embarked, is 
designed to conduct littoral operations within an Anti-Access/Area 
Denial (A2/AD) environment. LCS will be a vital component of any A2/AD 
operations, whether clearing mines, identifying enemy submarines or 
protecting high value units from hostile, swarming surface craft. 
Littoral Combat Ships are able to respond to threats quickly with speed 
(40 plus knots), maneuverability, a shallow draft and the unique 
capacity to respond with a variety of networked off-board systems.
    LCS is designed to operate independently or in surface action 
groups in low-to-medium threat environments. As a small surface 
combatant, LCS was not envisioned to operate independently in a high 
air threat environment. Rather, LCS will be networked as part of a 
battle force including multi-mission, deep water surface combatants and 
air assets to defend against elevated A2/AD threats such as high-volume 
Anti-Ship Cruise Missile (ASCM) raids, Anti-Ship Ballistic Missiles 
(ASBMs), and tactical air threats. While LCS has a very capable self-
defense capability, in situations where the threat of complex and high 
volume anti-ship missile attack is high, LCS will operate with Strike 
Group assets or area air defense capable ships.
    In addition to Mission Package weapons and systems, LCS will use 
its speed, organic weapons (including 57mm gun, decoys, chaff, and the 
RAM and SeaRAM missile system) and sensors to counter surface and air 
threats in the littorals. Further, LCS has equal or greater self-
defense capability compared to today's small surface combatants 
including Frigates, Mine Countermeasure Ships and Coastal Patrol Craft.
    Mr. Langevin. We recently held a hearing on the Asia-Pacific 
Rebalance; I'd be interested in hearing your thoughts on how the LCS 
would be utilized within an A2/AD environment.
    Mr. Francis. Since GAO has not completed work on this topic, we 
would suggest that you please direct this question to the Navy for a 
response.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. WITTMAN
    Mr. Wittman. Much of the savings and efficiencies of the LCS, the 
forward deployment plan, the mission modules, personnel reductions, 
logistics supply chains are all ``works in progress''. When do you 
expect to have this complete ``LCS system'' up and running--that means 
enough mission modules that have been tested and proven deployed to the 
appropriate location with the correct personnel to support them and the 
supply chain necessary for this bold concept of operations? When this 
entire system is up and running and the expected efficiencies are 
finally realized--the LCS hulls will be 10/15 years, over one third of 
their hull life will be expired before the efficiencies of the LCS are 
fully realized?
    Secretary Stackley. By Fiscal Year 2016, all three mission packages 
will have achieved Initial Operating Capacity (IOC). By Fiscal Year 
2018, the support facilities for Littoral Combat Ships (LCS) and the 
mission modules will be operational on both East and West Coasts and in 
two forward operating stations.
    In the 3:2:1 rotational crewing concept, three crews rotate between 
two LCS, with one ship for every two LCS operating forward, providing 
persistent presence in the Pacific Command (PACOM) and Central Command 
(CENTCOM) areas of responsibility. Under this concept, with 52 LCS, 
Navy will be able to continually forward-operate 26 LCS. In the current 
Navy deployment model for single-crewed cruisers, destroyers and 
frigates, the Navy would require more than one hundred ships to 
maintain the equivalent level of presence of 52 LCS. The LCS program 
remains an economical method to address warfighting capability gaps 
while providing sizable global forward presence.
    In Fiscal Year 2018, the Navy's fleet will include 20 LCS. USS 
FREEDOM (LCS 1) and USS INDEPENDENCE (LCS 2), which delivered in 2008 
and 2010, respectively, will be the only two LCS that will be near the 
10 year point of their service life.
    By contrast, LCS 5--LCS 20, will be less than four years old at the 
point when the LCS system is ``up and running'' with tested and fully 
supported ships and Mission Packages.
    Mr. Wittman. How has the Navy ensured compliance with Title 10 
maintenance requirements for U.S. homeported ships while supporting LCS 
1 forward deployed? And, what will be the ultimate plan for supporting 
multiple hulls in both Singapore and Bahrain?
    Secretary Stackley. Title 10 Section 7310 states ``A naval vessel 
the homeport of which is in the United States or Guam may not be 
overhauled, repaired, or maintained in a shipyard outside the United 
States or Guam, other than in the case of voyage repairs.'' USS 
FREEDOM's homeport during the current deployment to the Western Pacific 
remains San Diego, and therefore the Navy is providing required labor 
and technical expertise for regularly scheduled Preventive Maintenance 
Availability Periods (PMAV's) and Restricted Availability Periods 
(RAV's) via fly away teams consisting of United States based labor 
sources.
    Navy has ensured compliance with Title 10 maintenance requirements 
by using U.S.-based ``flyaway teams'' of U.S. contractors (prime/
subprime) for ship and mission module maintenance. Lockheed Martin (LM) 
also maintains a team in Singapore in order to coordinate logistics, 
scheduling, planning, quality assurance, liaison with local contractors 
and Navy, and supervise facilities maintenance. Emergent maintenance, 
or voyage repairs, can be performed by either flyaway teams or local 
contractors in accordance with Title 10.
    The Navy's ultimate plan for supporting multiple hulls in Singapore 
and Bahrain is to have permanent facilities in place at those 
locations, which will provide storage, staging and laydown of required 
tools, parts and equipment, as well as providing workshops for U.S. 
Navy personnel and contractor teams. The ultimate composition of 
maintenance teams remains to be determined, but the Navy will continue 
to follow all current and future Title 10 regulations.
    Mr. Wittman. VADM Hunt, how critical is the ASW mission module to 
the LCS mission? In 2008 the Navy cancelled the ASW project on LCS 
after the module showed that it did not contribute significantly to ASW 
capabilities. The Navy changed the requirements for the module to 
include a capability that would function in deep-water escort missions 
of high-value ships and submarines? VADM Hunt, the LCS has been pitched 
to us as a littoral combat ship that would operate at high speed and 
independently deploy. With the ASW module, is the idea now to integrate 
LCS into a Strike Group type scenario for escort duty? I can buy the 
MCM and SUW modules and filling the MCM and PC gaps in the fleet, but 
the frigate replacement seems like a stretch to me. Is the ASW module a 
bridge to far? You have 22 Cruisers and 62 (and counting) DDGs that 
have advanced ASW combat systems suites. Is this a needed capability in 
the LCS?
    Admiral Hunt. The LCS's ASW Mission Package (MP) is critical to the 
LCS mission and to the Fleet's overall ASW capability. LCS is capable 
of prosecuting a threat submarine from detection to engagement, on its 
own or in concert with other ships. The change from a static, barrier 
ASW capability to a mobile, ``in-stride'' ASW capability allows an ASW 
MP-equipped LCS to operate as part of a Strike Group if required. In 
that case, the LCS's ASW capabilities would complement those of the 
other ships and aviation assets to better defend aircraft carriers and 
other high-value ships. LCS significantly enhances the ASW Commander's 
capability to maintain undersea battlespace awareness, counter quiet 
threat submarines, and protect critical Fleet assets.
    LCS with an ASW MP provides this enhanced capability not only in 
deep water with a Strike Group, but also in littoral regions where FFG 
7/CG 47/DDG 51 Class ships may have limited access.
    The LCS, equipped with an ASW Mission Package, provides greater ASW 
capability than the current FFG 7, CG 47, and DDG 51 classes, 
particularly in a littoral environment. Those ships carry hull-mounted 
SONAR whose effectiveness is limited against a submarine hiding below 
an acoustic layer defined by temperature and pressure. The ASW MP 
provides a variable-depth SONAR that can be placed below this layer to 
detect these threats. This SONAR also provides a continuously-active 
acoustic source to provide an uninterrupted flow of data to the LCS. 
Current SONAR systems employed on other Navy ships must transmit pulsed 
signals through the water, listen, and then transmit again. This 
provides a less detailed SONAR ``picture'' to the ship. Together with 
the variable-depth SONAR, the continuously-active acoustic source 
allows an LCS to both detect submarines at longer ranges and better 
detect submarines that are able to hide from currently-fielded SONAR 
systems. The ASW MP also provides a towed torpedo decoy system, the 
Light Weight Tow persistent torpedo decoy system, that has the 
equivalent functionality of the AN/SLQ-25 NIXIE employed by the FFG 7, 
CG 47, and DDG 51 classes, but which has an operating envelope that 
supports lower speed and shallower water operation. Finally, the LCS 
also is able to operate its sensors at a higher speed than those 
classes.
    Mr. Wittman. Admiral Hunt, in light of the Admiral Wray report from 
last year which highlighted various long-term sustainment challenges, 
can you please provide specific examples of how the LCS Council has 
addressed some of these shortfalls and affected change for long-term 
sustainment of the platform?
    Admiral Hunt. The LCS Council has been an integral leadership body 
in addressing the shortfalls identified in Admiral Wray's report. 
Issues addressed by the LCS Council include a variety of solutions 
designed to improve reliability and sustainment of the ship and its 
equipment. Some examples are improving hydraulic systems reliability, 
for the INDEPENDENCE class ships, installing redesigned water jet 
controls for increased robustness to FREEEDOM (LCS 1) and adding 
electrical feedback loops to replace mechanical cables on INDEPENDENCE 
class ships (LCS 2 & 4 scheduled for post-delivery installation).
    In order to ensure the long-term material sustainment of LCS, Class 
Maintenance Plans (CMPs) for both FREEDOM and INDEPENDENCE classes were 
created by the shipbuilders. Surface Maintenance Engineering Planning 
Program (SURFMEPP) engineers conduct a continuous technical review of 
the plans to ensure accuracy. A Maintenance Efficiency Review (MER) was 
completed in March 2013, resulting in the realignment of FREEEDOM (LCS 
1) Planned Maintenance between the core crew and ashore maintenance 
teams. This ensures required upkeep is fully accomplished with proper 
accountability and quality assurance measures with plans to realign 
planned maintenance on INDEPENDENCE (LCS 2) in the future.
    Per LCS Council decision, the Navy added ten additional crew 
members to the core-crew to increase organic capacity for preventative 
and corrective maintenance in order to further enhance organic 
maintenance accomplishment rates. FREEDOM's current deployment is a 
test-bed for several improved maintenance efforts yielding positive 
results. Specifically, installed Reliability Engineering/Condition 
Based Maintenance (RE/CBM) sensors identified material deficiencies in 
the ship's air compressors prior to catastrophic failure, allowing for 
a preemptive repair (vice an unplanned industrial availability) and 
increasing the time the equipment was available for use.
    Mr. Wittman. VADM Hunt, as of last month you have contracted 24 
seaframes and procured 8 mission modules. You are on track to have a 
total of 52 seaframes and maintaining a balance of 16 ASW, 24 MCM, and 
24 SUW modules. What is the target for optimal and efficient manning 
for the hulls and the modules?
    Admiral Hunt. As Navy gains operational experience with LCS, the 
Navy will continue to refine the optimal number of billets and rates of 
Sailors in the LCS core crew and Mission Package detachments. The OPNAV 
Readiness Review that was conducted by RADM Perez, as well as multiple 
war games and studies, have demonstrated the need for additional core 
crew. The additional sailors will increase operational flexibility, 
enhance embarked maintenance capability, and support robust shipboard 
Anti-Terrorism/Force Protection (AT/FP) missions when in stationed in 
austere forward locations.
    As a result of these reviews and studies, USS FREEDOM (LCS 1) 
deployed to the Western Pacific in early 2013 with ten additional core 
crew members. Navy leadership will use the lessons learned from this 
deployment to inform any permanent manning changes. Navy also recently 
decided to add five Sailors to the Mine Countermeasures (MCM) Mission 
Package detachment, increasing the total number of personnel from 15 to 
20. This decision was made to ensure the detachment is able to fully 
meet the maintenance and handling requirements of the unmanned vehicles 
that are the center of the MCM Mission Package. The change was made 
based upon lessons learned during operational tests and evaluations. 
The number of Sailors for each Anti-Submarine Warfare Mission Package 
detachment remains at 15 Sailors, while the Surface Warfare Mission 
Package manning requirement remains at 19 Sailors.
    The potential increases in the core crew and the Mission Package 
are not significant departures from the minimal manning construct. The 
core crew is still within the threshold requirement of 50 personnel, 
and total crew manning remains below the threshold of 100 total 
Sailors.
    Mr. Wittman. VADM Hunt, what is the estimated procurement cost and 
life cycle maintenance cost of one mine warfare mission module? One 
hull costs $460-$480M a piece, while module cost seems to be in the 
range of $45-$59M a piece. We want this ship to replace the PCs, the 
MCMs, and the FFGs . . . Can this ship really replace the FFG mission? 
Would it be as or more affordable/cost effective to build a new FFG?
    Admiral Hunt. Based on the Navy's official Service Cost Position of 
6 February 2013, the Mine Countermeasures Mission Package has an 
initial procurement cost of $97.7M per unit, with an estimated ``life 
cycle maintenance'' cost of $340.1M over 30 years that includes costs 
for operation and sustainment, replacement/attrition/technology 
refresh, and disposal.
    The Littoral Combat Ship (LCS) will be more capable than the Oliver 
Hazard Perry Class Frigate (FFG), Patrol Craft (PC), and Mine 
Countermeasure (MCM) ships. The Navy's strategy calls for a ship to be 
capable of operating in a wide range of environments ranging from the 
open ocean to coastal or littoral waters. The LCS's high speed and low 
draft design make the ship uniquely qualified to operate in this wide 
range of environments. While both of these design features are key 
capabilities, the ship's true capability is its flexibility to be 
configured to perform any of the capabilities resident in an FFG, PC or 
MCM, and the LCS will be able to do so with capability that exceeds 
that of any of these current platforms.
    The Surface Warfare (SUW) capability of the LCS is far superior to 
that of an FFG or PC. The embarked armed helicopter, 30mm and 57mm 
guns, as well as LCS's much greater speed give LCS a superior counter-
swarm capability. The Surface to Surface Missile Module (SSMM) will 
further improve over time as an extended range missile capability is 
phased into the ship's arsenal. A SUW Mission Package (MP) is also 
configured so that LCS can conduct Visit Board Search and Seizure 
(VBSS), Maritime Interception Operations (MIO), and Intelligence, 
Surveillance and Reconnaissance (ISR) as proficiently as an FFG, and in 
certain mission areas, with increased capabilities.
    When comparing a legacy MCM ship to an LCS, the MCM MP will almost 
double Navy's legacy capability when the first increment meets its 
Initial Operational Capability (IOC) in FY 2015. For example, the 
Remote Minehunting System (RMS) will provide autonomous clearance of a 
minefield, taking the ship and the crew out of harm's way while doing 
so at an increased clearance rate over the MCM's. Future increments 
will further improve the Navy's ability to find and clear minefields 
throughout the water column as well as in the beach landing zone.
    The Anti-Submarine Warfare (ASW) MP-configured LCS will also 
provide far greater ASW capability than the FFG 7 Class. The LCS ASW MP 
complements and expands the detection ranges of today's Strike Group 
through unique systems such as a variable depth, continuously active 
sonar system. With improved detection ranges and its ability to operate 
sensors at increased speeds, LCS significantly enhances the ASW 
Commander's capability to maintain undersea battlespace awareness, 
counter quiet submarines, and protect critical Fleet assets. LCS with 
ASW MP provides this enhanced capability not only in deep water with a 
Strike Group, but also in littoral regions. The ASW MP's Light Weight 
Towed Torpedo Decoy will provide superior torpedo defense capability 
than the AN/SLQ-25 Nixie system carried by the FFG.
    A new FFG Class would be neither affordable nor able to be fielded 
in a timely manner compared to the current LCS Class. The Navy would be 
forced to incur the high cost and lengthy process of starting a new 
ship acquisition. Additionally, the legacy ships would have to undergo 
a costly Service Life Extension Program (SLEP) during the restart of a 
new program until the replacement FFGs are in-service. The Navy would 
also be left without a key future component to its global forward 
presence. The LCS program includes the 3:2:1 rotational crewing concept 
that provides for three crews to rotate between two LCS, with one ship 
for every two LCS operating forward. This concept provides persistent 
presence in the Pacific Command (PACOM) and Central Command (CENTCOM) 
areas of responsibility. Under the rotational crewing concept, with 52 
LCS, Navy will be able to continually forward-operate 26 LCS. In the 
current Navy deployment model for single-crewed cruisers, destroyers 
and frigates, the Navy would require more than one hundred ships to 
maintain the equivalent level of presence of 52 LCS. The LCS program 
remains an economical method to address warfighting capability gaps 
while providing sizable global forward presence. The LCS program is the 
Navy's most affordable warship program, and the ship is on the critical 
path to meeting the Navy's force structure requirements as outlined by 
the Chief of Naval Operations.
    Mr. Wittman. In April the Chief of Navy Reserve testified before 
the Senate Appropriations Committee Defense Subcommittee
    ``The Navy Reserve provides daily operational support and is a 
potent force multiplier that is leveraged on a daily basis to support 
Navy missions. Examples of the Navy Reserve's support to Navy and Joint 
Warfighting efforts include:
      Reserve Sailors are currently augmenting the first LCS deployment 
aboard USS Freedom (LCS-1).''
    VADM Hunt, how do you see the Navy Reserve force augmenting the 
Active duty force in the future and as more hulls and modules enter the 
fleet? With all options on the table to find efficiencies and cost 
savings, do reserve units and Sailors offer a long-term force 
multiplier to the LCS community and do you see this capability growing 
in the future?
    Admiral Hunt. The Navy Reserve provides essential operational 
support to the Fleet. The LCS Council has been studying further use of 
the Navy Reserve with the Littoral Combat Ship program as more ships 
and mission modules enter the Fleet. Navy leadership has determined 
Reserve Component Sailors will serve in conjunction with the Mission 
Packages and Aviation Detachments, including the unmanned Fire Scout 
system.
    Reserve Component Sailors provide CONUS/OCONUS maintenance of 
Mission Packages and Littoral Combat Ships. With respect to LCS 
Aviation Detachments, the Reserve Component cannot assume the entire 
mission, but they can provide limited Aviation Detachment support as 
well as Fire Scout training at shore bases.
    In Fiscal Year 2013, Reserve Component manning entailed 387 billets 
in 13 detachments throughout the country, providing administrative, 
logistics, training, maintenance and watch standing support. Future 
plans anticipate growth to approximately 1000 billets in 20 detachments 
providing a minimum of 20,000 man days of support per year.
    Mr. Wittman. Admiral, in response to a question posed at a HASC 
hearing in February 2012 about LCS crew swap, you mentioned that the 
most significant savings associated with flying ship crews overseas is 
the cost avoidance of the fuel required for the ship transiting and the 
cost of the associated support ships. Transporting a ship's crew--even 
a relatively small LCS crew--between the United States and a foreign 
port seems to present a significant logistical challenge. Commercial 
aviation is expensive, lacks flexibility, and is not a viable option in 
an environment of heightened tensions or conflict.
    You stated that the Navy was examining the viability of using Navy 
Unique Fleet Essential Airlift (NUFEA) to transport crews, cargo and 
support personnel in both peacetime and wartime for OCONUS LCS crew 
swaps. According to your statement, the Navy could leverage its own air 
logistics capability to enhance operational readiness at a significant 
cost savings.
    a. You have recently completed a crew swap of USS FREEDOM (LCS-1). 
Did the Navy use its NUFEA capability to accomplish this swap?
    b. If so, did you find that the utilization of air logistics assets 
controlled and operated by Navy was a force enhancer and effectively 
supported the operational capabilities of LCS 1?
    c. Your initial analysis concluded that using Navy air logistics 
assets would also be more cost effective than commercial means. 
Considering the crew swap model is in place to save steaming dollars 
and you have found that Navy airlift can execute the mission at a low 
relatively low cost, does the Navy plan to pursue the crew swap model 
with any other class of ships?
    Admiral Hunt. On July 31, 2013, Navy executed the very first 
Littoral Combat Ship (LCS) crew swap evolution. A single Navy C-40A 
Clipper, a Navy Unique Fleet Essential Airlift (NUFEA) asset, was used 
to execute the crew swap. The USS FREEDOM (LCS 1) Blue Crew--consisting 
of 76 personnel from ship's company, mission module detachment, and 
aviation detachment personnel--was safely delivered to Paya Lebar Air 
Base in Singapore. Following a successful turnover of the ship, the LCS 
1 Gold Crew was returned to Continental United States (CONUS) on August 
07, 2013, utilizing the Navy C-40A aircraft.
    The Navy determined that NUFEA provided the most operationally 
effective and fiscally efficient method to execute the LCS crew swap 
mission. The flexibility and responsiveness of Navy's organic airlift 
assets were critical success factors for this mission. The operational 
schedule of a forward deployed surface combatant, especially in the 
Pacific Area of Responsibility, is extremely dynamic and subject to the 
demands of ever-changing world events. This requires air logistics 
support that is flexible and able to respond quickly as the ship's 
operational schedule changes. Since Navy operates and schedules NUFEA 
assets to support Navy's mission, they are uniquely suited to fulfill 
this requirement.
    Cost analysis was an important consideration when determining how 
to source the LCS crew swap mission. Examination of the options 
revealed that Navy saved a significant amount of money using its own 
airlift vice relying on other airlift options (e.g. commercial, 
contract or other services' flights). The LCS crew swap model was 
developed to save ship steaming and maintenance dollars, and NUFEA is 
an important part of this model.
    In addition to being the most cost effective mechanism to execute 
this air logistics requirement, utilizing the Navy's NUFEA assets 
enabled FREEDOM's crews to maintain crew integrity throughout the 
evolution. This permitted an entire crew-to-crew turnover, instead of 
having to conduct the turnover in multiple iterations if the crew were 
unable to travel as a unit. Keeping the crew intact during the airlift 
mission was also essential to ensure force protection--and therefore 
safety--of FREEDOM's crews.
    Due to the success of the first crew swap, Navy plans to use NUFEA 
assets to execute future LCS crew swap missions. There are no plans to 
conduct crew swap with other classes of ship, but if that option were 
pursued by Navy leadership, NUFEA would be a logical choice.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. SPEIER
    Ms. Speier. My office has been told that the LCS 1 deployment to 
Singapore relied more heavily upon a ship rider than is typical for the 
Navy, and that some are concerned this may be undermining the ability 
of the sailors to operate the ship in the future. Are contractors 
performing functions that should be performed by sailors so they can 
operate their own ship? How do you know if the training pipeline is 
working if contractors are supplementing the crew?
    Admiral Hunt. During the deployment of USS FREEDOM (LCS 1) to the 
Western Pacific there have been Subject Matter Experts (SMEs) on board 
providing technical assistance to the crew as required. SMEs aboard USS 
FREEDOM are not performing any functions assigned to the officers or 
enlisted Sailors of FREEDOM's crew.
    The first overseas deployment of USS FREEDOM will provide lessons 
learned which will be examined and applied as needed to the shore based 
training curriculums in preparation for follow on LCS crew operations 
and deployments.
    Ms. Speier. What oversight plan would you recommend for Congress 
between now and the next block buy decision? Please includes dates of 
key decision points, information Congress should know before those 
decision points, and possible indicators of increased cost, schedule, 
and general program risk.
    Mr. Francis. Congress has several options for providing oversight 
between now and the next block buy decision in 2016. We highlighted a 
number of these options in our recent report (GAO-13-530) and they are 
also reflected in the table below.
    As shown in the table below, in each fiscal year from now (fiscal 
year 2013) through fiscal year 2015, Congress is faced with a number of 
decisions regarding the future of the LCS program, including 
authorizing and appropriating seaframes and mission modules, and 
ultimately authorizing the next block buy contract. At the same time, 
the Navy plans to complete a series of events over the next couple of 
years, including tests and trials, as well as submissions of Milestone 
documentation and analytical studies--each of which represent 
opportunities to gain further insight into the program's performance 
and enable Congress to make well informed funding decisions (see ``Navy 
Events/Oversight Opportunities''). Milestone documentation may provide 
an indication of increased cost, schedule, and program risk. For 
example, consistent with our recommendation, Congress may choose to 
request that the Navy submit an approved acquisition program baseline 
for the mission modules that accounts for the threshold and objective 
cost, schedule, and performance targets for each mission module 
increment before authorizing future mission module procurements.


----------------------------------------------------------------------------------------------------------------
Fiscal Year
              Congressional Decision   Navy Events/Oversight Opportunities           GAO Recommendations
----------------------------------------------------------------------------------------------------------------
2013          Authorize and            <bullet>LCS 1 Singapore deployment           Restrict FY14 ship funding until
              appropriate FY14         <bullet>LCS 4 Acceptance Trials              Navy:
              funding: 4 ships, 4      <bullet>Aluminum structure testing            <bullet>Completes ongoing technical and
              mission packages            (survivability)                                    design studies
                                       <bullet>Mission Module Milestone B            <bullet>Determines impacts of design
                                          (including approval of cost,                       changes
                                          schedule, performance baseline and         <bullet>Reports on plans to improve
                                          test plans)                                        commonality
                                       <bullet>Capability Production Documents       <bullet>Reports on cost-benefit analysis of
                                          (requirements) for Mission Package                 seaframe changes; commonality
                                          Increments                                         improvements
                                       <bullet>Studies evaluating changes to        Buy minimum number of modules needed
                                          increase commonality and add              for operational testing.
                                          capability and requirements
                                       <bullet>Defense Acquisition Board (DAB) In-
                                          process Review (annual OSD-AT&L
                                          review of program)
                                       <bullet>Submission of Long Range
                                          Shipbuilding Plan
----------------------------------------------------------------------------------------------------------------
2014          Authorize and            <bullet>SUW Inc I and Inc II Operational      If the Navy is approved by USD AT&L
              appropriate FY15            Testing (Freedom variant)                  to award additional seaframe block
              funding: 4 ships, 4      <bullet>DOT&E operational assessments         buy contracts for LCS 25 and
              mission packages         <bullet>Total Ship Survivability Trials       beyond, ensure that it only
                                          (Freedom variant)                          procures the minimum sustaining
                                       <bullet>Capability requirements for next      rate (1 ship per year for each
                                          Block Buy contract finalized               shipyard) until successful
                                       <bullet>Contract award for long-term          completion of full-rate production
                                          maintenance                                review (scheduled for FY19)
                                       <bullet>DAB In-process Review (annual AT&L   
                                           review of program)                        Require Navy to report on relative
                                       <bullet>Submission of Long Range              advantages of each seaframe before
                                          Shipbuilding Plan                          awarding the next Block Buy
                                                                                     contract.
                                                           
                                                                                     Buy minimum number of modules
                                                                                     needed for operational testing.
----------------------------------------------------------------------------------------------------------------
2015          Authorize and            <bullet>Acquisition strategy for next         If the Navy is approved by USD AT&L
              appropriate FY16            Block Buy contract finalized               to award additional seaframe block
              funding: 2 ships, 6      <bullet>Solicit proposals and source          buy contracts for LCS 25 and
              mission packages            selection for next Block Buy               beyond, ensure that it only
                                          contract                                   procures the minimum sustaining
              Authorize next           <bullet>SUW Inc I and Inc II Operational      rate (1 ship per year for each
              seaframe contract(s)        Testing (Independence variant)             shipyard) until successful
              (Second Block Buy        <bullet>MCM Inc I Operational Testing         completion of full-rate production
              contract)                   (Independence variant)                     review (scheduled for FY19)
                                       <bullet>DOT&E operational assessments                                     
                                       <bullet>Total Ship Survivability Trials       Require Navy to report on relative
                                          (Independence variant)                     advantages of each seaframe before
                                       <bullet>DAB In-process Review (annual         awarding the next Block Buy
                                          AT&L review of program)                    contract.
                                       <bullet>Submission of Long Range
                                          Shipbuilding Plan                          Buy minimum number of modules
                                                                                     needed for operational testing.
                                       
----------------------------------------------------------------------------------------------------------------

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
